<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]




 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2015

                              ----------                              


                        THURSDAY, MARCH 27, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Shelby, Murkowski, Kirk, and 
Boozman.

                    FEDERAL BUREAU OF INVESTIGATION

STATEMENT OF HON. JAMES B. COMEY, JR., DIRECTOR

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning, everybody. The Subcommittee 
on Commerce, Justice, Science will come to order. This is our 
first hearing on the fiscal year 2015 budget. We are starting 
with the esteemed and much valued Federal Bureau of 
Investigation. We will have a two-part hearing. This will be an 
open session, with all Senators free to participate and ask 
their questions. When this concludes, we will adjourn for a 
classified hearing on the Bureau's needs, particularly in the 
global war against terrorism and cyber security and some of 
those that are more sensitive in terms of the need for global 
protection and global cooperation.
    We want to welcome Director Comey here for his very 
important appearance and we look forward to hearing his 
testimony in terms of the needs of the FBI. Last year we 
concluded I think with a vote on January 20 in which we were 
able to pass an omnibus bill for fiscal year 2014. Thanks to 
the work, bipartisan and bicameral, Senator Murray and 
Congressman Ryan were able to give us a budget and a top line 
cancelling the sequester, which had a draconian impact on both 
the function of core agencies like the FBI and on the morale.
    We look forward this year to moving ahead in an expeditious 
way to move this so that we could avoid that kind of crisis in 
budgeting that has been characteristic of the Congress for more 
now than 5 years.
    To get our work done, we will again listen to Director 
Comey on budget and priorities. It is his first time as the 
Director, but not our first meeting. We appreciate his 
competence, his candor and his long history of service.
    In welcoming you, Mr. Director, we want to thank the entire 
FBI for the way that they protect America. Whether it is 
fighting crime in organized crime, whether it's dealing with 
terrorists or predators, the FBI is on the job 24-7, 365 days a 
year, and we want them to know that they're appreciated, and we 
would like to show our appreciation to make sure they have the 
right resources and the right tools so that they can do the job 
that they were signed up to do. We believe that they are the 
unsung heroes.
    This hearing will focus on the FBI's vital work. As chair, 
I've reviewed the FBI's budget, which comes in at $8.4 billion. 
In fiscal year 2014 we had an increase of $762 million above 
the sequester request. So it was $762 million, and it sounds 
like it was a big bump-up, but it was a bump-up to keep us 
running in place.
    I'd like you to describe then about your need to retain 
talent, to recruit talent, and to train and educate the 
legendary training that goes on at Quantico. I understand that 
the 2015 request would keep the FBI moving while making sure 
our taxpayer dollars are spent wisely.
    Now, we know that the sequester caused the FBI to cancel 
training, to ration gas to 200 miles a week. We valued a much-
read and circulated document called ``Voices From the Field.'' 
This is where we heard from the FBI agents themselves. Not only 
did they fear furlough for their families, but they feared the 
impact on the mission. Then we heard they didn't have gas for 
their cars. What kind of--we can't do this. So we're going to 
make sure we're looking to you and listening to you to do this, 
so we'll be looking at the 21st century threats.
    We know that one of the major 21st century threats is in 
cyber space, whether it's the hackers, the cyber spies, or the 
cyber terrorists. We want to be clear in this hearing that 
cyber security is not the cyber surveillance that is the 
subject of much discussion at many levels in this Government 
and in others. We know that cyber security means protecting us 
from criminals out to steal credit card information, personal 
identities, companies' trade secrets, and even worse, whether 
it's to bring down the grid or bring down our financial 
services.
    We know the FBI's in the front line in this area, and that 
the request is $392 million for the Next Generation Cyber 
Initiative, $9 million less than 2014. So we want to know, what 
is it you want to do, either at this hearing or the classified 
one, and is this the resources to do it?
    One of the hallmarks of the FBI has really been working 
with local law enforcement. The joint task forces that have 
emerged receive kudos from around the Nation. Certainly in my 
own Baltimore metropolitan area, in the Washington metropolitan 
area, law enforcement speaks with such enthusiasm and such 
energy when they talk about these joint task forces, and that 
they can rely on the FBI, but keep law enforcement. We don't 
have a national police force in this country, but we have an 
American joint task force.
    So we want to know how in your budget, what this means to 
State and local. We've been concerned that these two face 
significant cuts.
    Finally, I'd like to mention the fact that you need a new 
headquarters. We know that the Hoover Building is dated and to 
the point of even being dysfunctional, that you're in 20 leased 
spaces. You know that two alpha delegations, Maryland and 
Virginia, are duking it out. We'll go through the competitive 
process, but my criteria, wearing my national hat, is that you 
need full consolidation. You don't need a micro-consolidation, 
because we want it to meet its functionality and security 
requirements for the next 50 years.
    So we look forward to listening to you and listening to the 
needs of really what is it to make sure how we have a robustly 
funded FBI, a 21st century FBI, for 21st century threats.
    I now turn to my vice chairman, who's been such an advocate 
in this area and has some key facilities in Alabama, Senator 
Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you.
    Mr. Director, I want to welcome you to the committee. This 
is your first appearance before the subcommittee as FBI 
Director. I hope you will be coming to see us often.
    We had a good working relationship with your predecessor, 
Director Mueller, and we look forward to a similar relationship 
with you and the Bureau. The mission of the FBI is broad and 
multifaceted. Its responsibilities include, among other things, 
investigating terrorist attacks and cyber threats, targeting 
health care fraud, leading the Federal Government's efforts to 
analyze improvised explosive devices, routing out gang 
activity. The list goes on and on. You have a broad mandate.
    This broad mission requires the FBI to maintain focus on 
traditional criminal activities, while adapting to the new 
threats of this country. Terrorists and criminals are agile and 
sophisticated. The same is required of the Bureau. To remain 
effective, the Bureau must have the ability, I believe, to 
refocus and retool to address emerging threats. Without a plan 
to address such threats or a process for regularly reevaluating 
priorities, the FBI will find itself playing catch-up with the 
criminal elements it seeks to eliminate.
    The Bureau's 2015 budget, which is the subject of today's 
hearing, outlines the FBI's strategic priorities. According to 
the documents provided, these priorities have not substantially 
been redefined since 2011. This is particularly troubling given 
the growing cyber threat that the chairwoman mentioned that our 
Nation is facing.
    Recognizing the dynamic world in which we live and the 
tough fiscal climate that we face here, I want to be sure that 
the budget priorities of the Bureau truly reflect the threats 
that are facing this country. The ultimate goal of any 
prioritization effort should be an FBI that is efficient, 
effective, and, more importantly, nimble for the foreseeable 
future.
    I'm committed to working with you and the chair to ensure 
that we're targeting limited resources in a manner that 
safeguards taxpayer dollars while preserving public safety.
    Once again, we appreciate you taking this job as the head 
of the Bureau and we look forward to working with you.
    Thank you, Madam Chair.
    Senator Mikulski. I want to acknowledge that Senator Kirk 
is here. Senator, could you hold your statement until the 
Director finishes and we turn to questions, or do you need to 
leave?
    Senator Kirk. I will hold my statement.
    Senator Mikulski. Thank you very much.
    Director Comey.

             SUMMARY STATEMENT OF HON. JAMES B. COMEY, JR.

    Mr. Comey. Madam Chairwoman, Senator Shelby, Senator Kirk, 
members of the subcommittee: it's an honor to be here 
representing the great people of the FBI. This is my first 
appearance in what is a 10-year term that I'm very, very 
excited about because of those people. I have spent my first 6 
months traveling around trying to meet my troops, and what I 
discovered is that the magic of the FBI is its talent. We don't 
have a lot of stuff; we have remarkable people.
    What I found when I first took this job was that they were 
people who were very stressed by the impact that sequester was 
having on them, which Senator Mikulski, you mentioned. 
Everywhere around the country I heard from my folks about the 
difficulties they were encountering with vacancies, limitations 
on gas, the abolition of training, and Quantico being a ghost 
town.
    Thanks to this committee and other members of the Senate 
and the House, that changed in late January when the budget was 
passed. I'm now in a position where I'm restarting Quantico. 
I'm also looking to hire a thousand people to start to fill the 
almost 2,500 vacancies that we have--hundreds of special agents 
and intelligence analysts, to restock that magic of the FBI 
that is our talent.
    So, thank you so much for that on behalf of the men and 
women of the FBI. And we need those people because, as Senator 
Shelby said, the plate of threats that we face is remarkable.
    I'll start with our top priority, Counterterrorism. The 
threat that I've encountered returning to Government after 8 
years away is one that remains incredibly serious, but has 
changed. It has metastasized in ways that are striking. The 
primary tumor along the border of Afghanistan and Pakistan was 
dramatically reduced by the fight of our men and women in 
uniform and our Intelligence Community. But at the same time, 
that threat has metastasized into the lightly governed or 
ungoverned spaces in the world, especially in North Africa, 
around the Gulf, and around the Mediterranean. And also here at 
home with the growth of the people we call home-grown violent 
extremists. I don't like to call them ``lone wolves'' because 
that sounds dignified in a way that they don't deserve--folks 
who are able to access Al-Qaeda's hateful propaganda on the 
Internet and convince themselves, even without being directed, 
that they need to engage in some sort of jihad here at home and 
kill innocent Americans. So that metastasizing threat poses an 
enormous challenge to everybody in the Intelligence Community, 
but especially to the great people of the FBI.
    Counterintelligence remains a top priority of the Bureau 
because nation-states around the world still want to steal our 
secrets and they are finding new and sophisticated ways to do 
this, especially through cyber. So we remain on guard 24-7, as 
the chairwoman said, to protect that which is most important to 
our Nation.
    Cyber, as the chair said, touches everything I do. The 
reason is fairly easy to understand: we as Americans, as a 
Nation and as a people, have connected our entire lives to the 
Internet. It's where our children play, it's where our money 
is, it's where our health care is, it's where our 
infrastructure is, our secrets. So it's where those who would 
do us harm come at us--for our children, for our money, for our 
private information, for our Nation's secrets, and for our 
vital infrastructure. It touches everything the FBI is 
responsible for, so we are doing everything in our power to 
make sure we are deployed, equipped, and trained to address 
that threat.
    And of course, we're responsible for a host of criminal 
challenges, from public corruption to civil rights to white-
collar crime, gangs, human trafficking, and protecting our 
children. And we're doing that in 56 field offices all around 
this country and in offices all around the world every day.
    As, Madam Chairwoman, you said, we also have a 
responsibility to use the taxpayers' money to train and to 
assist State and local law enforcement. We have world-class 
facilities and world-class technical capabilities and we work 
hard to make them available to our brothers and sisters in law 
enforcement.
    The last thing I'll say is my travels have convinced me 
that the FBI is international in ways that would have been 
difficult to see just 10 years ago. Nearly everything we do 
that matters has an international dimension to it. So I am 
extremely proud of our legal attaches deployed around the 
world, who build relationships and do service for not just the 
FBI, but all the American people.

                           PREPARED STATEMENT

    So we're doing a lot of things and we do it through the 
people. As I said, the magic is the talent. I thank you so much 
for supporting those folks and for giving me the resources to 
make sure we have enough of those great folks.
    My hope for 2015 is to be able to sustain the progress we 
have made since late January, restock the talent of the FBI, 
and march out to meet those many challenges. I look forward to 
working with you on that.
    Thank you so much.
    [The statement follows:]
             Prepared Statement of Hon. James B. Comey, Jr.
    Good morning Chairwoman Mikulski, Vice Chairman Shelby, and members 
of the subcommittee. I look forward to discussing the FBI's fiscal year 
2015 budget request, as well as FBI programs and priorities for the 
coming year. On behalf of the men and women of the FBI, let me begin by 
thanking you for your ongoing support of the Bureau.
    Thanks to the support of this subcommittee, we now have a budget in 
place that that allows us to do more operationally, to hire and train 
new agents and intelligence analysts, and to backfill vacant positions 
in our field offices. We pledge to be the best possible stewards of the 
budget you have provided for us and to use it to maximum effect to 
carry out our mission.
    Today's FBI is a threat-focused, intelligence-driven organization. 
Each employee of the FBI understands that to mitigate the key threats 
facing our Nation, we must constantly strive to be more efficient and 
more effective.
    Just as our adversaries continue to evolve, so, too, must the FBI. 
We live in a time of acute and persistent terrorist and criminal 
threats to our national security, our economy, and our communities. 
These diverse threats facing our Nation and our neighborhoods 
underscore the complexity and breadth of the FBI's mission.
    We remain focused on defending the United States against terrorism, 
foreign intelligence, and cyber threats; upholding and enforcing the 
criminal laws of the United States; protecting civil rights and civil 
liberties; and providing leadership and criminal justice services to 
Federal, State, municipal, and international agencies and partners. Our 
continued ability to carry out this demanding mission reflects the 
support and oversight provided by this committee.
    The FBI's fiscal year 2015 budget request totals $8.3 billion in 
direct budget authority, including 34,970 permanent positions (13,050 
Special Agents, 3,048 Intelligence Analysts, and 18,872 professional 
staff). This request includes two program enhancements: 14 positions 
and $3.2 million for Mutual Legal Assistance Treaty reform, and $15 
million for operations and maintenance for the Terrorist Explosive 
Device Analytical Center (TEDAC) facility in Huntsville, Alabama.
    Let me summarize the FBI efforts that this funding supports.
                           national security
    The FBI is the lead domestic intelligence and law enforcement 
agency in the United States. Our complementary intelligence and law 
enforcement capabilities make up the key components of the Bureau's 
national security mission. They also illustrate the unique authorities 
and mission we have in the U.S. Intelligence Community. We collect 
intelligence to understand and identify the threats to the Nation. And 
when the time comes for action to prevent an attack, we disrupt threats 
using our law enforcement powers through our Joint Terrorism Task 
Forces (JTTFs).
    Much of the FBI's success can be credited to the longstanding 
relationships we enjoy with our intelligence, law enforcement, public, 
and private sector partners. With thousands of private and public 
business alliances and more than 4,100 JTTF members, including more 
than 1,500 interagency personnel from more than 600 Federal, State, 
territorial, and tribal partner agencies, the FBI's partnerships are 
essential to achieving our mission and ensuring a coordinated approach 
toward national security threats.
Counterterrorism
    As the lead agency responsible for countering terrorist threats to 
the United States and its interests overseas, the FBI integrates 
intelligence and operations to detect and disrupt terrorists and their 
organizations.
    Counterterrorism remains our top priority. The Boston Marathon 
bombings in April 2013 remind us that the terrorist threat against the 
United States remains persistent. The threat from homegrown violent 
extremists is of particular concern. These individuals present unique 
challenges because they do not share a typical profile; their 
experiences and motives are often distinct and personal. They are also 
increasingly savvy and willing to act alone, which makes them more 
difficult to identify and to stop.
    In the past 2 years, homegrown extremists have attempted to 
detonate improvised explosive devices or bombs at such high profile 
targets as the Federal Reserve Bank in New York, commercial 
establishments in downtown Chicago, the Pentagon, and the U.S. Capitol. 
Fortunately, these attempts and many others were thwarted. Yet the 
threat from such individuals remains.
    The foreign terrorist threat is similarly complex and ever 
changing. Overseas, we are seeing more groups and individuals engaged 
in terrorism, a wider array of terrorist targets, greater cooperation 
among terrorist groups, and continued evolution and adaptation in 
tactics and communication.
    Al-Qa'ida and its affiliates, especially al-Qa'ida in the Arabian 
Peninsula (AQAP), continue to represent a top terrorist threat to the 
Nation. These groups have attempted several attacks on the United 
States, including the failed Christmas Day airline bombing in 2009, and 
the attempted bombing of U.S.-bound cargo planes in October 2010.
    To better address this evolving threat, the FBI has established the 
Countering Violent Extremism (CVE) Office. This office leverages FBI 
resources and works with Federal counterparts to empower our local 
partners to prevent violent extremists and their supporters from 
inspiring, radicalizing, financing, or recruiting individuals or groups 
in the United States to commit acts of violence. The CVE Office 
facilitates an understanding of the catalysts to violent extremism, as 
well as its behavioral components and radicalization factors, and 
identifies possible inhibitors to these phenomena. The FBI is leading 
efforts to conduct outreach and raise community awareness, while 
upholding civil rights and civil liberties.
Counterintelligence
    We still confront traditional espionage--spies posing as diplomats 
or ordinary citizens. But espionage also has evolved. Spies today are 
often students, researchers, or businesspeople operating front 
companies. And they seek not only state secrets, but trade secrets, 
research and development, intellectual property, and insider 
information from the Federal Government, U.S. corporations, and 
American universities. Foreign intelligence services continue to grow 
more creative and more sophisticated in their methods to steal 
innovative technology, critical research and development data, and 
intellectual property, which erodes America's leading edge in business 
and poses a significant threat to national security.
    We remain focused on the growing scope of the insider threat--that 
is, when trusted employees and contractors use their legitimate access 
to information to steal secrets for the benefit of another company or 
country. This threat has been exacerbated in recent years as businesses 
have become more global and increasingly exposed to foreign 
intelligence organizations.
    To combat this threat, the FBI's Counterintelligence Division 
educates academic and business partners about how to protect themselves 
against economic espionage. We also work with the defense industry, 
academic institutions, and the general public to address the increased 
targeting of unclassified trade secrets across all American industries 
and sectors.
    Together with our intelligence and law enforcement partners, we 
must continue to protect our trade secrets and our state secrets, and 
prevent the loss of sensitive American technology.
Weapons of Mass Destruction
    As weapons of mass destruction (WMD) threats continue to evolve, 
the FBI uses its statutory authorities to lead all investigations 
concerning violations of WMD-related statutes, preparation, assessment, 
and responses to WMD threats and incidents within the United States. 
The FBI provides timely and relevant intelligence analyses of current 
and emerging WMD threats to inform decision makers, support 
investigations, and formulate effective countermeasures and tripwires 
to prevent attacks.
    To ensure an effective national approach to preventing and 
responding to WMD threats, the FBI created the Weapons of Mass 
Destruction Directorate integrating the necessary counterterrorism, 
intelligence, counterintelligence, and scientific and technological 
components into one organizational structure. Using this integrated 
approach, the Directorate leads WMD policy development, planning, and 
response to ensure its efforts result in a comprehensive response 
capability that fuses investigative and technical information with 
intelligence to effectively resolve WMD threats.
    To enable the prevention or disruption of WMD threats or attacks, 
FBI headquarters personnel, 56 field WMD coordinators, and two WMD 
assistant legal attaches oversee implementation of national and 
international initiatives and countermeasures. The FBI conducts 
outreach and liaison efforts with critical infrastructure partners, the 
private sector, academia, industry, and the scientific community to 
implement tripwires that prevent any actor--terrorist, criminal, 
insider threat, or lone offender--from successfully acquiring chemical, 
biological, radiological, or nuclear material or dissemination 
equipment. Through these efforts, the WMD Directorate supports the 
broader work of the U.S. Government as a leading partner and active 
contributor to policy decisions.
    The Counterproliferation Center (CPC) combines the operational 
activities of the Counterintelligence Division, the subject matter 
expertise of the Weapons of Mass Destruction Directorate (WMDD), and 
the analytical capabilities of both components to identify and disrupt 
proliferation activities. Since its inception in July 2011, the CPC has 
overseen the arrest of approximately 65 individuals, including several 
considered by the U.S. Intelligence Community to be major 
proliferators. Along with these arrests, the CPC has increased its 
operational tempo to collect valuable intelligence on proliferation 
networks.
Intelligence
    The FBI's efforts to advance its intelligence capabilities have 
focused on streamlining and optimizing the organization's intelligence 
components while simultaneously positioning the Bureau to carry out its 
responsibilities as the lead domestic intelligence agency.
    One way the FBI is enhancing our partnerships and our ability to 
address threats is through the Domestic Director of National 
Intelligence (DNI) Representative Program. Through this program, FBI 
senior-level field executives in 12 geographic locations are serving as 
DNI representatives throughout the United States. The Domestic DNI 
Representatives are working with Intelligence Community partners within 
their regions to understand the threat picture and develop a more 
coordinated and integrated Intelligence Community enterprise. A more 
unified and effective Intelligence Community will enhance the Nation's 
ability to share information with our law enforcement and private 
sector partners, and will prevent and minimize threats to our national 
security.
    In addition, we expanded the fusion cell model, which further 
integrates our intelligence and operational elements through teams of 
analysts embedded with agents in the operational divisions. These 
fusion cells examine the national and international picture and provide 
intelligence on current and emerging threats across programs, making 
connections that are not always visible at the field level. Providing 
standard criteria, these cells inform the Threat Review and 
Prioritization (TRP) process and develop National Threat Priorities for 
the field. The fusion cells assess the FBI's ability to collect 
intelligence to identify gaps, inform operational strategies, and 
mitigate threats to drive FBI operations. As a result, the fusion cells 
and TRP provide the field with clear guidance and a consistent process 
to identify priority threats, while ensuring FBI Headquarters has an 
effective way to manage and evaluate the most significant threats 
facing the country.
    This strategic, national-level perspective ensures the FBI is 
developing a complete picture of the threat environment and directing 
our resources at priority targets to stay ahead of our adversaries. 
This integration provides a cross-programmatic view of current threats 
and enables a nimble approach to identifying and addressing emerging 
threats.
Cyber
    We face cyber threats from state-sponsored hackers, hackers for 
hire, organized cyber syndicates, and terrorists. They seek our state 
secrets, our trade secrets, our technology, and our ideas--things of 
incredible value to all of us. They may seek to strike our critical 
infrastructure and our economy. The threat is so dire that cyber 
security has topped the Director of National Intelligence list of 
global threats for the second consecutive year.
    Given the scope of the cyber threat, agencies across the Federal 
Government are making cyber security a top priority. Within the FBI, we 
are targeting high-level intrusions--the biggest and most dangerous 
botnets, state-sponsored hackers, and global cyber syndicates. We want 
to predict and prevent attacks, rather than reacting after the fact.
    FBI agents, analysts, and computer scientists are using technical 
capabilities and traditional investigative techniques--such as sources 
and wires, surveillance, and forensics--to fight cyber crime. We are 
working side-by-side with our Federal, State, and local partners on 
Cyber Task Forces in each of our 56 field offices and through the 
National Cyber Investigative Joint Task Force (NCIJTF). Through our 24-
hour cyber command center, CyWatch, we combine the resources of the FBI 
and NCIJTF, allowing us to provide connectivity to Federal cyber 
centers, government agencies, FBI field offices and legal attaches, and 
the private sector in the event of a cyber intrusion.
    We also work with the private sector through partnerships such as 
the Domestic Security Alliance Council, InfraGard, and the National 
Cyber Forensics and Training Alliance. And we are training our State 
and local counterparts to triage local cyber matters, so that we can 
focus on national security issues.
    Our legal attache offices overseas work to coordinate cyber 
investigations and address jurisdictional hurdles and differences in 
the law from country to country. We are supporting partners at Interpol 
and The Hague as they work to establish international cyber crime 
centers. We continue to assess other locations to ensure that our cyber 
personnel are in the most appropriate locations across the globe.
    We know that to be successful in the fight against cyber crime, we 
must continue to recruit, develop, and retain a highly skilled 
workforce. To that end, we have developed a number of creative staffing 
programs and collaborative private industry partnerships to ensure that 
over the long term we remain focused on our most vital resource--our 
people.
                                criminal
    We face many criminal threats, from complex white-collar fraud in 
the financial, healthcare, and housing sectors to transnational and 
regional organized criminal enterprises to violent crime and public 
corruption. Criminal organizations--domestic and international--and 
individual criminal activity represent a significant threat to our 
security and safety in communities across the Nation.
Public Corruption
    Public corruption is the FBI's top criminal priority. The threat--
which involves the corruption of local, State, and federally elected, 
appointed, or contracted officials--strikes at the heart of government, 
eroding public confidence and undermining the strength of our 
democracy. It impacts how well U.S. borders are secured and 
neighborhoods are protected, how verdicts are handed down in court, and 
how well public infrastructure such as schools and roads are built. The 
FBI is uniquely situated to address this threat, with our ability to 
conduct undercover operations, perform electronic surveillance, and run 
complex cases. However, partnerships are critical and we work closely 
with Federal, State and local authorities in pursuing these cases. One 
key focus is border corruption. The Federal Government protects 7,000 
miles of U.S. land border and 95,000 miles of shoreline. Every day, 
more than a million visitors enter the country through one of 327 
official ports of entry along the Mexican and Canadian borders, as well 
as through seaports and international airports. Any corruption at the 
border enables a wide range of illegal activities, potentially placing 
the entire Nation at risk by letting drugs, guns, money, and weapons of 
mass destruction slip into the country, along with criminals, 
terrorists, and spies. Another focus concerns election crime. Although 
individual States have primary responsibility for conducting fair and 
impartial elections, the FBI becomes involved when paramount Federal 
interests are affected or electoral abuse occurs.
Financial Crimes
    We have witnessed an increase in financial fraud in recent years, 
including mortgage fraud, healthcare fraud, and securities fraud.
    The FBI and its partners continue to pinpoint the most egregious 
offenders of mortgage fraud. With the economy and housing market still 
recovering in many areas, we have seen an increase in schemes aimed 
both at distressed homeowners and at lenders. Our agents and analysts 
are using intelligence, surveillance, computer analysis, and undercover 
operations to identify emerging trends and to find the key players 
behind large-scale mortgage fraud. We also work closely with the 
Department of Housing and Urban Development, Postal Inspectors, the 
IRS, the FDIC, and the Secret Service, as well as with State and local 
law enforcement offices.
    Healthcare spending currently makes up about 18 percent of our 
Nation's total economy. These large sums present an attractive target 
for criminals--so much so that we lose tens of billions of dollars each 
year to healthcare fraud. Healthcare fraud is not a victimless crime. 
Every person who pays for healthcare benefits, every business that pays 
higher insurance costs to cover their employees, every taxpayer who 
funds Medicare, is a victim. Schemes can cause actual patient harm, 
including subjecting patients to unnecessary treatment, providing sub-
standard services and supplies, and by passing potentially life-
threatening diseases due to the lack of proper precautions. As 
healthcare spending continues to rise, the FBI will use every tool we 
have to ensure our healthcare dollars are used to care for the sick--
not to line the pockets of criminals.
    Our investigations of corporate and securities fraud have also 
increased substantially in recent years. As financial crimes become 
more sophisticated, so must the FBI. The FBI continues to use 
techniques such as undercover operations and Title III intercepts to 
address these criminal threats. These techniques are widely known for 
their successful use against organized crime, and they remain a vital 
tool to gain concrete evidence against individuals conducting crimes of 
this nature on a national level.
    Finally, the FBI recognizes the need for increased cooperation with 
our regulatory counterparts. Currently, we have embedded agents and 
analysts at the Securities and Exchange Commission and the Commodity 
Futures Trading Commission, which allows the FBI to work hand-in-hand 
with U.S. regulators to mitigate the corporate and securities fraud 
threat. Furthermore, these relationships enable the FBI to identify 
fraud trends more quickly, and to work with our operational and 
intelligence counterparts in the field to begin criminal investigations 
when deemed appropriate.
Gangs/Violent Crime
    Violent crimes and gang activities exact a high toll on individuals 
and communities. Today's gangs are sophisticated and well organized; 
many use violence to control neighborhoods and boost their illegal 
money-making activities, which include robbery, drug and gun 
trafficking, fraud, extortion, and prostitution rings. Gangs do not 
limit their illegal activities to single jurisdictions or communities. 
The FBI is able to work across such lines, which is vital to the fight 
against violent crime in big cities and small towns across the Nation. 
Every day, FBI Special Agents work in partnership with State and local 
officers and deputies on joint task forces and individual 
investigations.
    FBI joint task forces--Violent Crime Safe Streets, Violent Gang 
Safe Streets, and Safe Trails Task Forces--focus on identifying and 
targeting major groups operating as criminal enterprises. Much of the 
Bureau's criminal intelligence is derived from our State, local, and 
tribal law enforcement partners, who know their communities inside and 
out. Joint task forces benefit from FBI surveillance assets and our 
sources track these gangs to identify emerging trends. Through these 
multi-subject and multi-jurisdictional investigations, the FBI 
concentrates its efforts on high-level groups engaged in patterns of 
racketeering. This investigative model enables us to target senior gang 
leadership and to develop enterprise-based prosecutions.
Transnational Organized Crime
    More than a decade ago, the image of organized crime was of 
hierarchical organizations, or families, that exerted influence over 
criminal activities in neighborhoods, cities, or States. But organized 
crime has changed dramatically. Today, international criminal 
enterprises run multi-national, multi-billion-dollar schemes from start 
to finish. These criminal enterprises are flat, fluid networks with 
global reach. While still engaged in many of the ``traditional'' 
organized crime activities of loan-sharking, extortion, and murder, new 
criminal enterprises are targeting stock market fraud and manipulation, 
cyber-facilitated bank fraud and embezzlement, identify theft, 
trafficking of women and children, and other illegal activities. 
Preventing and combating transnational organized crime demands a 
concentrated effort by the FBI and Federal, State, local, and 
international partners. The Bureau continues to share intelligence 
about criminal groups with our partners, and to combine resources and 
expertise to gain a full understanding of each group.
Crimes Against Children
    The FBI remains vigilant in its efforts to eradicate predators from 
our communities and to keep our children safe. Ready response teams are 
stationed across the country to quickly respond to abductions. 
Investigators bring to this issue the full array of forensic tools such 
as DNA, trace evidence, impression evidence, and digital forensics. 
Through improved communications, law enforcement also has the ability 
to quickly share information with partners throughout the world, and 
our outreach programs play an integral role in prevention.
    The FBI also has several programs in place to educate both parents 
and children about the dangers posed by predators and to recover 
missing and endangered children should they be taken. Through our Child 
Abduction Rapid Deployment teams, Innocence Lost National Initiative, 
Innocent Images National Initiative, Office of Victim Assistance, and 
numerous community outreach programs, the FBI and its partners are 
working to keep our children safe from harm.
    The FBI established the Child Sex Tourism Initiative to employ 
proactive strategies to identify U.S. citizens who travel overseas to 
engage in illicit sexual conduct with children. These strategies also 
include a multi-disciplinary approach through partnerships with foreign 
law enforcement and non-governmental organizations to provide child 
victims with available support services. Similarly, the FBI's Innocence 
Lost National Initiative serves as the model for the partnership 
between Federal, State and local law enforcement in addressing child 
prostitution. Since its inception, more than 3,100 children have been 
located and recovered. The investigations and subsequent 1,450 
convictions have resulted in lengthy sentences, including twelve life 
terms.
Indian Country
    The FBI continues to maintain primary Federal law enforcement 
authority to investigate felony crimes on more than 200 Indian 
reservations nationwide. More than 100 Special Agents from 20 different 
field offices investigate these cases. In addition, the FBI has 14 Safe 
Trails Task Forces that investigate violent crime, drug offenses, and 
gangs in Indian Country and we continue to address the emerging threat 
from fraud and other white-collar crimes committed against tribal 
gaming facilities.
    Sexual assault and child sexual assault are two of the FBI's 
investigative priorities in Indian Country. Statistics indicate that 
American Indians and Alaska Natives suffer violent crime at greater 
rates than other Americans. Approximately 75 percent of all FBI Indian 
Country investigations concern homicide, crimes against children, or 
felony assaults.
    The FBI continues to work with tribes through the Tribal Law and 
Order Act of 2010 to help tribal governments better address the unique 
public safety challenges and disproportionately high rates of violence 
and victimization in many tribal communities. The act encourages the 
hiring of additional law enforcement officers for Native American 
lands, enhances tribal authority to prosecute and punish criminals, and 
provides the Bureau of Indian Affairs and tribal police officers with 
greater access to law enforcement databases.
                          science & technology
Laboratory Services
    The FBI Laboratory (``the Lab'') is one of the largest and most 
comprehensive forensic laboratories in the world. Operating out of a 
state-of-the-art facility in Quantico, Virginia, laboratory personnel 
travel the world on assignment, using science and technology to protect 
the Nation and support law enforcement, intelligence, military, and 
forensic science partners. The Lab's many services include providing 
expert testimony, mapping crime scenes and conducting forensic exams of 
physical and hazardous evidence. Lab personnel possess expertise in 
many areas of forensics supporting law enforcement and intelligence 
purposes, including explosives, trace evidence, documents, chemistry, 
cryptography, DNA, facial reconstruction, fingerprints, firearms, and 
WMD.
    One example of the Lab's key services and programs is the Combined 
DNA Index System (CODIS), which blends forensic science and computer 
technology into a highly effective tool for linking crimes. It enables 
Federal, State, and local forensic labs to exchange and compare DNA 
profiles electronically, thereby connecting violent crimes and known 
offenders. Using the National DNA Index System of CODIS, the National 
Missing Persons DNA Database helps identify missing and unidentified 
individuals.
    TEDAC is another example. TEDAC was formally established in 2004 to 
serve as the single interagency organization to receive, fully analyze, 
and exploit all priority terrorist Improvised Explosive Devices (IEDs). 
TEDAC coordinates the efforts of the entire government, including law 
enforcement, intelligence, and military entities, to gather and share 
intelligence about IEDs. These efforts help disarm and disrupt IEDs, 
link them to their makers, and prevent future attacks. Although 
originally focused on devices from Iraq and Afghanistan, TEDAC now 
receives and analyzes devices from all over the world.
    Additionally, FBI Evidence Response Teams (ERTs) are active in all 
56 field offices and include more than 1,200 members. The FBI supports 
and enables evidence collection capabilities of field ERTs and law 
enforcement partners by providing forensic training, resources, and 
expertise. The FBI also has forward-deployed evidence response 
capabilities to respond to terrorist attacks and criminal incidents 
involving hazardous materials (chemical, biological, nuclear, and 
radiological) in concert with local officials and FBI WMD experts.
Operational Technology
    Terrorists and criminals are increasingly adept at exploiting 
cutting-edge technologies to carry out or to mask their crimes. To 
counter current and emerging threats, the FBI actively deploys a wide 
range of technology-based tools, capabilities, and training that enable 
and enhance intelligence, national security, and law enforcement 
operations. In addition to developing state-of-the-art tools and 
techniques, the FBI also focuses on recruiting and hiring individuals 
who possess specialized skills and experience. These dedicated 
employees serve as technically trained agents, engineers, computer 
scientists, digital forensic examiners, electronics technicians, and 
other specialists. Collectively, these specialists enable lawful 
electronic surveillance, provide secure communications, decipher 
encrypted messages, reverse engineer malware, forensically examine 
digital evidence such as images and audio recordings, and much more.
    By way of example, the National Domestic Communications Assistance 
Center (NDCAC) is designed to leverage and share the law enforcement 
community's collective technical knowledge, solutions, and resources to 
address the challenges posed by advancing communications services and 
technologies. The NDCAC also works on behalf of Federal, State, local, 
and tribal law enforcement agencies to strengthen law enforcement's 
relationships with the communications industry.
    The FBI has also established 16 Regional Computer Forensic 
Laboratories (RCFLs) across the Nation. RCFLs serve as one-stop, full-
service forensics laboratories and training centers. All RCFL personnel 
in each of the 16 facilities across the country must earn FBI 
certification as digital forensics examiners and follow standardized 
evidence handling and operating procedures. RCFLs are staffed by 
Federal, State, and local law enforcement personnel who examine digital 
evidence in support of all types of investigations--cases involving 
everything from child pornography and terrorism to violent crime and 
economic espionage.
Criminal Justice Information Services
    The FBI Criminal Justice Information Services (CJIS) Division, 
located in Clarksburg, West Virginia, provides Federal, State, and 
local enforcement and other authorized users with timely access to 
criminal justice information through a number of programs, including 
the National Crime Information Center, the Uniform Crime Reporting 
program, and the National Instant Criminal Background Checks System.
    In addition, CJIS manages the Integrated Automated Fingerprint 
Identification System (IAFIS), which provides timely and accurate 
identification services by identifying individuals through name, date-
of-birth, fingerprint image comparisons, or other descriptors, and 
provides criminal history records on individuals for law enforcement 
and civil purposes. IAFIS is designed to process criminal fingerprint 
submissions in 2 hours or less and civil submissions in 24 hours or 
less. In fiscal year 2013, approximately 62.7 million fingerprint 
background checks were processed. The Next Generation Identification 
program advances the FBI's biometric identification and investigation 
services, providing new biometric functionality such as facial 
recognition, improved latent searches, and immediate responses related 
to the Repository for Individuals of Special Concern, a fingerprint 
index of wanted persons, sexual offender registry subjects, known or 
appropriately suspected terrorists, and other persons of special 
interest.
    CJIS also manages the Law Enforcement National Data Exchange (N-
DEx), a criminal justice information sharing network that allows law 
enforcement agencies to share law enforcement records from more than 
4,500 agencies with nearly 140,000 criminal justice users. The N-DEx 
network contains more than 225 million searchable records (incident 
reports, arrest reports, booking data, etc.). It is projected that by 
the end of fiscal year 2014, N-DEx information sharing will be 
available to law enforcement agencies representing almost 60 percent of 
the U.S. population.
                    critical incident response group
    The Critical Incident Response Group (CIRG) is a ``one stop shop'' 
for responding rapidly to crisis situations worldwide. Its 
professionals are on call around the clock, ready to support FBI 
operations and Federal, State, local, and international law enforcement 
partners in managing critical incidents and major investigations.
    The National Center for the Analysis of Violent Crime (NCAVC) 
provides operational support to FBI agents and law enforcement 
personnel on complex and time-sensitive cases.
    The Behavioral Threat Assessment Center (BTAC) assesses the 
potential threat of violence posed by persons of concern and as 
reflected in threatening communications. Issues traditionally addressed 
by the BTAC include school and workplace attacks, threats against 
Members of Congress and public figures, and threatening communications.
    The Violent Criminal Apprehension Program (ViCAP) is the national 
repository for violent crime cases--specifically those involving 
homicides, sexual assaults, missing persons, and unidentified human 
remains--helping to draw links between seemingly unconnected crimes. In 
2008, the FBI launched the ViCAP Web National Crime Database, which is 
available to law enforcement agencies through the secure Law 
Enforcement Online (LEO) website. Investigators can search ViCAP Web 
for nationwide cases similar to theirs and communicate with other U.S. 
law enforcement agencies to coordinate investigations based on these 
linkages. More than 5,000 Federal, State, and local law enforcement 
agencies have contributed to the 85,000-case ViCAP national violent 
crime database.
Active Shooter Training
    In the aftermath of the tragedy at Sandy Hook elementary school, 
the President announced the Now Is the Time initiative focused on 
protecting children and communities by reducing gun violence. A 
critical component of this initiative focuses on schools, institutions 
of higher education, and houses of worship. The FBI was assigned to 
lead law enforcement training to ensure coordination among agencies. To 
that end, we have trained more than 9,600 senior State, local, tribal, 
and campus law enforcement executives at conferences hosted by FBI 
field offices, and trained more than 6,300 first responders through 
tabletop exercises designed around facts similar to recent school 
shootings. To date, the FBI has provided our Advanced Law Enforcement 
Rapid Response Training course, an active shooter training program, to 
more than 1,400 officers from 613 agencies.
Tactical Operations & Crisis Response
    CIRG has a range of tactical resources and programs that support 
and provide oversight to the FBI and its partners. For example, each 
FBI field office has a SWAT team that is equipped with a wide array of 
specialized weaponry and is trained to engage in hazardous operations 
such as barricaded subjects, high-risk arrest/search warrants, 
patrolling through adverse terrain, and--in some field offices--
maritime interdictions. These teams include crisis negotiators who 
routinely respond to prison sieges, hostage takings, and kidnappings 
nationwide and provide assistance to State and local police 
negotiators. CIRG also manages the FBI Hostage Rescue Team--the U.S. 
Government's non-military, full-time counterterrorist tactical team--
which provides enhanced manpower, training, and resources to confront 
the most complex threats.
    The Hazardous Devices School at Redstone Arsenal in Huntsville, 
Alabama, is the Nation's only facility for training and certifying 
public safety bomb technicians to render safe hazardous devices. 
Managed by the FBI, the school has trained more than 20,000 State and 
local first responders since it opened in 1971. A natural extension of 
this school can be found in the FBI's own 249 Special Agent bomb 
technicians, who provide training to local and State bomb squads and 
serve as the workforce for the FBI's explosives-related operations 
worldwide.
                           victim assistance
    Through the Office for Victim Assistance (OVA), the FBI ensures 
that victims of crimes investigated by the FBI are afforded the 
opportunity to receive the services and notifications required by 
Federal law and the Attorney General Guidelines on Victim and Witness 
Assistance. Among its many services, OVA provides on-scene help to 
crime victims, assesses and triages their needs, and helps victims 
identify and secure counseling, housing, medical attention, and legal 
and immigration assistance. When other resources are not available, OVA 
administers special Victims of Crime Act funds to meet victims' 
emergency needs, including reunification travel, crime scene cleanup, 
replacement clothing, and shipment of victims' remains.
    Special services are provided to child victims. The Child 
Pornography Victim Assistance Program coordinates support and 
notification services for child victims of pornography and their 
guardians. The Forensic Child Interviewing Program ensures that 
investigative interviews of child victims and witnesses of Federal 
crimes are tailored to the child's stage of development and minimize 
any additional trauma. Additionally, a detailed protocol was recently 
developed for providing support to families of abducted children and 
assisting with post-recovery reunification and follow-up services. OVA 
is partnering with the Criminal Investigative Division's Violent Crimes 
Against Children Section and other agencies and organizations to 
improve the response to and services for minor victims of sex 
trafficking.
    The Terrorism and Special Jurisdiction Program provides emergency 
assistance to injured victims and families of American victims killed 
in terrorist attacks and serves as a permanent point of contact for 
terrorism victims. Victim Assistance Rapid Deployment Teams provide 
immediate, on-scene assistance to victims of domestic terrorism and 
mass violence, often at the request of local law enforcement agencies. 
These highly trained and experienced teams have responded to numerous 
mass casualty crimes since 2006, most recently to tragedies at Sandy 
Hook Elementary School, the Washington Navy Yard, and at the Boston 
Marathon.
                         information technology
    The FBI's Information and Technology Branch (ITB) provides 
enterprise-wide IT products and services to more than 36,000 FBI 
employees, contractors, and task force members, including managing more 
than 114,000 workstations and 46 mission-critical systems.
    The target of the ITB's current modernization efforts is to create 
the future FBI Information Environment. Technology provides a distinct 
advantage, allowing FBI users access to their critical data when, 
where, and how they need it. The FBI Information Environment will 
support development of new mission and business functionality within a 
defined and controlled IT framework. These modernization efforts will 
move the FBI toward an agile, responsive, and efficient services-based 
operating model, emphasizing reuse of enterprise services both to 
increase cost savings and to enhance the reliability of IT 
infrastructure and applications.
                         international offices
    One of the fundamental challenges of the 21st Century is stopping 
overseas threats from compromising the security of the United States. 
For this reason, the FBI maintains more than 80 offices overseas that 
cover more than 200 countries and territories. Though our successes 
have been many, the increase in crimes with an overseas nexus shows we 
must do more.
    The FBI continues to look for opportunities to open offices 
worldwide in the Middle East, Africa, Eurasia, the Americas, and Asia 
to target emerging terrorist, cyber, and criminal threats. Staff have 
strong cross-programmatic skills and work side-by-side with sister 
agencies, host governments, and corporate partners to take on threats. 
By targeting terrorists and criminals on their home turf--before their 
plots take shape--the FBI can stop those who wish to harm the United 
States before they have the capability to do so.
                                training
    In fiscal year 2014, the FBI plans to graduate approximately seven 
new groups of trainees by the end of the fiscal year--more than 300 
Special Agents. We also hope to fill six classes of new intelligence 
analysts.
    The National Academy provides law enforcement executives and 
investigators from State and local law enforcement agencies worldwide 
with advanced leadership training. The National Academy has continued 
to trained more executives, adding to its total of more than 47,000 
graduates to date.
    The FBI provides leadership, intelligence, and law enforcement 
assistance to its international training partners through a variety of 
programs designed to establish and strengthen cooperation and liaison 
between the FBI and its overseas counterparts. Courses offered include 
organized crime cases, anti-gang strategies, terrorist crime scene 
investigations, and street survival techniques. The FBI also 
administers the International Law Enforcement Academy (ILEA) in 
Budapest, Hungary, and supports other academies in Bangkok, Thailand; 
Gaborone, Botswana; and San Salvador, El Salvador; as well as the 
Regional Training Center in Lima, Peru. The curriculums of these 
academies are based on the FBI National Academy model. To date, more 
than 11,100 students have received ILEA training.
    Other key training programs include Leadership in Counterterrorism, 
which has trained more than 400 upper-level counterterrorism executives 
from State or national police agencies and chiefs or deputy chiefs of 
local agencies to date; the Domestic Security Executive Academy, which 
has trained more than 340 Federal executives and Fortune 1,000 
corporate security executives; the Law Enforcement Executive 
Development Seminar (LEEDS), a two-week program designed for chief 
executive officers of the Nation's mid-sized law enforcement agencies; 
and the National Executive Institute (NEI), a two-week executive 
training program that provides strategic leadership education and 
partnership opportunities for executives from the highest levels of the 
FBI and the largest U.S. and international law enforcement agencies.
                         leadership development
    We created the Leadership Development Program (LDP) to help prepare 
FBI employees to lead before taking formal leadership positions, by 
providing relevant tools, courses, and developmental experiences needed 
for success. These efforts are fostering a Bureau-wide cultural shift 
toward promoting long-term individual development to better operate in 
quickly developing transitions and crises.
    Since 2009, LDP has built a variety of integrated programs, 
including onboarding for both new employees and specific positions such 
as executives and senior managers, in-depth courses for both current 
and new supervisors and program managers, and a developmental program 
to prepare aspiring leaders before they are promoted. LDP's various 
programs were created by employees, for employees, and are designed to 
build upon one another over the course of an employee's career. They 
were originally benchmarked against successful models from our 
military, law enforcement, and intelligence partners, as well as 
private companies; as LDP has grown, other government agencies now 
reach out to benchmark against the FBI.
                                offsets
    The FBI's fiscal year 2015 budget request includes an offset of 
$168 million to pay for increases in existing costs, including pay 
raises, Federal Employees Retirement System contributions, State 
Department charges, and General Services Administration (GSA) rent, 
among others. The offset will be achieved through a combination of 
program efficiencies and administrative savings. In addition, the 
fiscal year 2015 request includes a $12 million offset to the Secure 
Work Environment (SWE) program. In fiscal year 2015, the SWE program 
will continue to maintain existing facilities while providing an 
increase in capabilities at high priority locations.
                               conclusion
    Responding to this complex and ever-changing threat environment is 
not new to the FBI. The resources this subcommittee provides each year 
are critical for the FBI's ability to address existing and emerging 
national security and criminal threats.
    Chairwoman Mikulski, Vice Chairman Shelby, and members of the 
subcommittee, I would like to close by thanking you for this 
opportunity to discuss the FBI's priorities. Chairwoman Mikulski, we 
are grateful for the leadership that you and this subcommittee have 
provided to the FBI. We would not be in the position we are today 
without your support. Your investments in our workforce, our 
technology, and our infrastructure make a difference every day at FBI 
offices in the United States and around the world, and we thank you for 
that support.
    I look forward to answering any questions you may have.

    Senator Mikulski. Well, that was very compelling testimony, 
Director. I think it was organized in the way our priorities 
are in terms of our national security threats, our criminal 
threats, support to our partners, particularly in our country, 
and those that are around the world.

                                 BUDGET

    But the FBI is, in terms of its $8 billion--and I think 
it's a bargain for what we get for $8 billion, when you think 
of the magnitude, of the number of agents, the analysts, the 
support staff, 60 places around the world, 56 field offices 
here.
    But your request really goes to people. It's not a big 
plane, it's not a big aircraft carrier. What we were able to do 
in fiscal year 2014 on a bipartisan basis I think allowed you 
to bring in 1,000 new critical positions; is that right?
    Mr. Comey. Yes, which I'm trying to fill by October 1.
    Senator Mikulski. Now, what in terms of--what is it that we 
need to help you keep that momentum going? The talent is not a 
spigot you can turn on. Unlike--and we're not knocking our 
friends in defense, but you know you can delay the purchase of 
an aircraft carrier, you can buy one less fighter plane, save a 
half a billion dollars. But here talent, both the trainers that 
you need, again at Quantico, and then the ability to recruit--
people, they don't want to be in a spigot job; they want to be 
in a real job, you know, where the spigot's on.
    Tell us what we need to do in our line items to really 
sustain the momentum and provide the adequacy in particularly 
key areas?
    Mr. Comey. Thank you, Senator Mikulski. As you said, the 
FBI is people. I have no battleships, no satellites. I have 
great men and women. What I need is to be able to hire the 
people that I'm trying to hire by October 1st and then continue 
to hire, because we're down almost 2,500 positions. So I need 
to be able to hire the new folks next fiscal year and pay and 
support those that we bring on this year. So just to continue 
the progress is what I need.
    Senator Mikulski. The purpose of this hearing is not fiscal 
year 2016, but then the biggest threat to your momentum would 
be not a stringent budget in fiscal year 2016, but a sequester 
that just goes across the board; is that correct?
    Mr. Comey. Yes, that would be sort of back to the future 
for us. If that were to happen, we'd again be in the position 
where we'd be rationing gas and not filling vacancies, and we'd 
be back to what we experienced the last 2 years.

                    STATE AND LOCAL LAW ENFORCEMENT

    Senator Mikulski. Now, let's go to State and local law 
enforcement in my time. These partnerships are key. We don't 
have a national police force. America doesn't want it. But we 
have an FBI that provides national resources and deals with 
Federal crime.
    You, meaning the Federal level, rely on local law 
enforcement to be eyes, ears, boots on the ground. It's the 
local police commissioner and the local police officer that 
often sees something and says something that makes a 
difference, whether it's fighting crime or dealing with the 
terrorist threat.
    I note a cut in the State and local law enforcement area. 
What do you anticipate in order, again, to sustain and maintain 
the relationships and the effort at the local level, like 
fighting gangs that I know Senator Kirk is so devoted to, a 
great concern of mine in the Baltimore area, the whole issue of 
child predators and the trafficking in children. So could you 
share with us then what you need in that area?
    Mr. Comey. Certainly, Senator. There's nothing we do--not 
nothing we do at all, but certainly nothing we do that matters, 
that we don't do in partnership with State and local law 
enforcement. The days of the lone fed are long gone. We work 
together to make sure we're gaining maximum leverage from each 
other, whether that's protecting kids, protecting 
neighborhoods, or protecting the Nation from terrorists.
    A bedrock of our counterterrorism response is our Joint 
Terrorism Task Forces. We have over 100. They are 50 percent 
State, local, and other Federal law enforcement agencies. So 
those partnerships are vital. Part of the glue that holds those 
partnerships together is our ability to offer training and 
technical assistance to our brothers and sisters at the State 
and local level. We had to shut all that down before the budget 
was passed at the end of January. So now we are again offering 
that training and assistance, and I'd like to be able to 
continue that.
    Senator Mikulski. There are other questions that I have, 
but I'm going to yield to Senator Shelby.
    Senator Shelby. Thank you, Madam Chair. I'll try to be 
brief, but I have a number of questions, Madam Chair.

                             CYBER SECURITY

    Director Comey, you've acknowledged the growing cyber 
security threat that was mentioned by the chair, facing our 
Nation and the challenges that are inherent in facilitating 
private industry reporting of attacks. It's been told to us 
that private industry often believes that their reports fall on 
deaf ears because they receive no feedback or little feedback 
or follow-up information about the status of some of the 
reports. This perception could be a serious impediment to the 
kind of information-sharing that you envision. I think it's 
important.
    My question is what steps are you taking or will you take 
to foster relationships with private industry and in turn 
increase the number of private industry participants in the 
Bureau's reporting system, which I think is essential here? And 
would you also speak directly to the concerns regarding the 
industry reporting process and the fact that the information 
exchange is perceived as a one-way street? You know, it's got 
to be both because you have to rely on a lot of that.
    Mr. Comey. Thank you, Senator. Great question and a really 
important topic. One of the many great things about our amazing 
country is that our Internet is almost entirely in private 
hands. That's the way it should be. That's the engine of 
entrepreneurship and creativity in this country. One of the 
challenges that poses is that without the ability to share 
information effectively between the government and private 
enterprise, the law enforcers are left patrolling a street 
that, if you imagine, almost has 30-foot high solid walls on 
either side. I can declare that the street is safe, but I'm not 
really protecting the neighborhood because it's on the other 
side of the wall.
    We have to find a way to share information in both 
directions, consistent with protecting the great liberties that 
underlie this country. So we at the FBI, and the Federal 
Government as a whole, have to get better at sharing actionable 
information with the private sector; not just telling them 
there's a problem in your system, but telling them, here's what 
it is, here's what it means, here's what you can do about it. 
And they need to do the same. They have a lot of smart people 
in private industry. When they see something, they've got to be 
able to share it with us.
    So there are two things need to be done. We have to get 
better, and we're developing a whole host of ways to be more 
effective at our information-sharing. And we have to offer them 
clear rules of the road, so when they're looking to share 
information with us they understand how it will be used and how 
it might affect their shareholders, if it exposes them to 
lawsuits, and all the other things that come in this great 
country. So that bipartisan clarity needs to be offered.
    Senator Shelby. You're going to work on that, aren't you?
    Mr. Comey. We're working like crazy on that.
    Senator Shelby. That's good.

                        HAZARDOUS DEVICES SCHOOL

    The Hazardous Devices School. The FBI's Hazardous Devices 
School trains and certifies public safety bomb technicians. You 
know this well.
    Mr. Comey. Yes, sir.
    Senator Shelby. In addition to providing basic training for 
bomb technicians, the Hazardous Devices School of the Bureau is 
also responsible for providing training in electronic 
countermeasures and advanced training in priority threat 
scenarios. State and local technicians are the first line of 
defense in responding to bomb threats, working with the Bureau. 
Ensuring that they're aware of the latest trends and are 
properly trained I think is very important and this school does 
a lot of this.
    Could you talk just for a few minutes about the training 
capacity of your Hazardous Devices School today, specifically 
the number of students that it can accommodate, the number of 
classes offered annually, and the need that exists in terms of 
recertifying, as we evolve, the bomb technicians? And is there 
an unmet training need in the community, and if so how can we 
address it, because we've got 300 million people and we do have 
some threats.
    Mr. Comey. Yes. Thank you, Senator. We have many.
    One of the hidden gems of this country is the Hazardous 
Devices School, where, as you said, Senator, we train all bomb 
techs in the United States. So it's an effort that's a joint 
Federal effort that includes the Department of Defense, which 
is a key partner in the Hazardous Devices School. So it is a 
vital basic building block for people who want to become 
special agent bomb techs or want to become bomb techs in police 
departments.
    What we need to do to make sure we're taking advantage of 
that gem is be able to offer advanced training certifications 
for people who have gone out and become bomb techs to come back 
to get refresher training and to get advanced training on the 
latest devices and threats. So we've done a good job at 
offering the basic training. What we need to find a way to do 
is to re-source that additional training and sophisticated 
refresher training for those bomb techs.
    Senator Shelby. You're going to have to get ahead of the 
terrorists in many ways, are you not?
    Mr. Comey. Yes.
    Senator Shelby. Because if you lag behind technically 
speaking, we're in a real threat area.
    Mr. Comey. Yes, sir. There are smart, evil people laying 
awake at night trying to find ways to defeat us and to find the 
next thing that we haven't caught up with. We need to be just 
as smart and just as wide awake.

              TERRORIST EXPLOSIVE DEVICE ANALYTICAL CENTER

    Senator Shelby. The Terrorist Explosive Device Analytical 
Center, as we call it, TEDAC, is the single inter-agency 
organization to receive, fully analyze, and exploit all 
terrorist improvised explosive devices, or IEDs. Much of the 
TEDAC's work has come from Iraq and Afghanistan. But as U.S. 
forces withdraw from Afghanistan, TEDAC's focus will shift. I 
believe that the IED threat that we face at home or could face 
in the future makes the work of TEDAC probably more important 
than ever.
    What's the FBI's vision for a postwar TEDAC and will the 
skills and capabilities shift with the threat, and if so what 
will it look like? Because you've got to be nimble here. 
Although we've been fortunate and the Bureau's done a great job 
and other law enforcement people, we can't be so smug or secure 
to think that people can't build those improvised explosive 
devices here, because they can. What are your thoughts in this?
    Mr. Comey. That's exactly right, Senator. TEDAC is a 
lifesaver. It has saved lives in Afghanistan and in Iraq. It 
saves lives all around the world. And I agree with you 
completely, the drawdown in Iraq and Afghanistan will not 
signal a drawdown in terrorist efforts to kill us with these 
explosive devices. In fact, what's happened is a lot of the 
terrorists have learned techniques in the war zones that 
they're now looking to spread around the world. So we have to 
stay on top of our game there. We need to continue to make sure 
we're drawing on the military for their advice and guidance. 
But TEDAC will save lives for the indefinite future because the 
threat is indefinite.
    Senator Shelby. Madam Chair, I have a couple of more 
questions that I'd like to submit for the record for the 
Director, because I know we have another closed hearing after 
this.
    Senator Mikulski. Without objection, so ordered.
    I want to turn now to Senator Boozman, but before I do I 
want to acknowledge that Senator Kirk was here. He has a 
longstanding interest and advocacy in this area.
    We're doing 60 hearings in 6 weeks to move our deadlines. 
So Senators are stretched. But we want to also acknowledge that 
if Senator Kirk has any questions we'll submit them to the 
record. We also know his longstanding interest in fighting 
gangs, as we noted, and I'm sure he'll have questions in this 
area.
    Senator Boozman.
    Senator Boozman. Thank you, Madam Chair, very much.
    Thanks for being here. We appreciate you and appreciate the 
great job that the FBI does and the dedication that's 
represented there.

                         AGRICULTURE ESPIONAGE

    Recently in Arkansas we had a situation where some people 
were arrested for espionage in the farm sector. I'd like for 
you to talk about that a little bit. I think there's a lot of 
surprise that we saw that in Arkansas, again in the farm 
sector. Something I think is really important, it's kind of 
like--I'm an optometrist by training, an eye doctor, and so 
it's much better to prevent things than it is to let them 
happen. Can you talk a little bit about some of the things that 
you are doing, some of the things you'd like to do that aren't 
getting done, to really make our companies, make us as a 
Congress, aware that these things are going on, how we can help 
you in that regard?

                               ESPIONAGE

    Mr. Comey. Yes, thank you, Senator. There's no doubt that 
foreign nation-states, especially China, want to steal our 
ideas. The ideas of America are not just in Internet companies. 
They're often in the creative work that agriculture companies 
are doing to develop disease-resistant seeds or crops that will 
produce greater yields with less water, things that will help 
people.
    The source of that entrepreneurship and that energy are the 
great people here in the United States working in labs and 
working in companies. There are countries around the world 
that, rather than do that work, would like to steal it from us, 
which would sap that energy and that entrepreneurship and kill 
that spirit that's at the center of this country.
    So it's something we focus on constantly. It's the reason 
we have counterintelligence at the top of our list, because 
there are people in cases that we've brought who are looking to 
steal seed technology, every bit as much as people want to 
steal intellectual property on the Internet. So what we're 
doing is trying to make sure we're aggressive in those cases, 
so that when we catch folks doing that, they understand there's 
a cost to it. We're going to lock people up for that. It's not 
a freebie to take America's seed technology. And we're trying 
to put in place tripwires so that companies, whether it's 
agricultural companies or whether it's a software company, 
understand when they see something that doesn't seem right to 
them, they've got to call us, because bad people are looking to 
steal things that matter to you enormously.
    Those tripwires are very valuable and contributed in the 
case that you were referring to and other cases that we've 
brought that relate to agricultural theft.
    Senator Boozman. Very good.

                             CYBER SECURITY

    In a related area, cyber security, certainly you are doing 
a lot in that regard, I think hopefully in educating and again 
in getting after folks that are doing that. The private sector 
is doing a pretty good job of that, and the private sector has 
a tendency to perhaps be a little bit more innovative or move a 
little quicker with things. Can you talk about some of the 
public-private partnerships that you're pursuing in that 
regard, or are you pursuing public-private partnerships?
    Mr. Comey. Yes, we are, Senator, for the reasons you said. 
I spent the last 8 years working at two world-class companies 
in two different industries and there's no doubt that private 
industry is spending the money to get the talent on board to 
think in a good way about those challenges. So they've got a 
lot of brainpower.
    We have to be smart by connecting ourselves to that 
brainpower. I've got a lot of smart people. I don't have all 
the smart people in the world. A whole lot of them are in 
private enterprise. So as I said in response to Senator Shelby, 
we have to get better at connecting ourselves.
    Therefore a bunch of different ways in which we're trying 
to do that. We have an effort called Infraguard, where we're 
trying to join together in partnership all around the country 
with private industry. We have something called DSAC, the 
Domestic Security Alliance Council, to accomplish the same 
mission. But whatever it's name, we need to make sure we're 
connected to them.
    One of the obstacles is we live in a litigious society--I 
was the general counsel of two companies and I know as the 
general counsel you worry: if I cooperate with the government, 
is someone going to sue me, claim that I violated some 
obligation to protect information? It's one of the reasons I 
think it's so important that we, through legislation, offer 
those clear rules of the road to those general counsels so they 
can tell their tech geeks, you can go ahead and share this and 
here's what the rules are.

                         LEGAL ATTACHE OFFICES

    Senator Boozman. You mentioned in your testimony about 
opportunities to establish offices worldwide, in the Middle 
East, Africa. Can you talk about some of the barriers that 
you're running into in that regard or some of the obstacles 
perhaps that you face in trying to get that done?
    Mr. Comey. Well, in our Legal Attache program--we call them 
``LEGATs''--we have 64, I think that is the number, around the 
world. I have visited now ten of them and discovered that they 
are, as I said, not just a representative of the FBI, but of 
the entire United States, a tremendous force multiplier for us.
    So the obstacle is I simply need to make sure that I 
identify more good people and have the resources to develop 
those offices at embassies around the world. So I'm going to be 
looking to do more of that early in my tenure. It's simply a 
question of identifying the talent and having the resources to 
do it.
    Senator Boozman. Thank you, Madam Chair.
    Senator Mikulski. Thank you, Senator.
    The question of the international assistance I think is 
really something the committee needs to pay attention to. I 
believe there are 60 LEGAT offices around the world. Am I 
correct?
    Mr. Comey. I think the number is 64.
    Senator Mikulski. Some are micro, but some are robust in 
countries where we need to be robust or have been invited?
    Mr. Comey. Yes, that's exactly right.
    Senator Mikulski. And they're not secret. They're known. In 
other words, the private sector--first of all, the host country 
knows, etcetera.
    Mr. Comey. That's correct.
    Senator Mikulski. They're usually cooperating locally and 
working regionally; am I correct?
    Mr. Comey. That's correct, Senator.
    Senator Mikulski. You want to add 14--the President's 
budget and I believe yours is 14 positions, for a modest $3.2 
million; is that correct?
    Mr. Comey. That's correct. That's what I meant by the 
resources to spread that great thing a little bit farther out.
    Senator Mikulski. Yes. And it would mean a lot to some of 
these countries for us to have a presence?
    Mr. Comey. Oh, yes. I got a call this morning with a 
foreign counterpart who asked me about that. They find them 
incredibly valuable as a gateway that swings both ways. It gets 
our country information, but also helps them get assistance, 
especially training for their law enforcement.
    Senator Mikulski. And a presence, that the FBI is not the 
KGB.
    Mr. Comey. We are not.
    Senator Mikulski. That's what I hear a lot.
    Mr. Comey. Nice to show people that.
    Senator Mikulski. Yes.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chairman.
    Good morning, Director. I appreciate your leadership here. 
A couple years ago when your predecessor, Director Mueller, 
appeared before our subcommittee--this was in 2012--Senator 
Hutchison, who served on the committee as well, she and I asked 
him about the possible FBI misconduct in the investigation and 
the prosecution of Senator Ted Stevens. I'm assuming or I'm 
hopeful that in preparation for today's hearing your staff 
might have told you that it was a whistleblower complaint of an 
FBI agent named Chad Joy that first brought the misconduct to 
light.

         EMPLOYER MISCONDUCT RELATING TO STEVENS INVESTIGATION

    I haven't heard anything about the FBI's probe into Agent 
Joy's allegations since 2012. So the question that I have for 
you this morning: The Director at that meeting told the 
committee that the FBI's investigation of employee misconduct 
is still pending relating to the Stevens investigation. That 
was 2 years ago. We're here in 2014. So the question is whether 
or not the FBI's investigation has been concluded and, if so, 
what was the outcome of that investigation, and if there has 
been any corrective action taken if you could inform me?

                     SENATOR STEVENS INVESTIGATION

    Mr. Comey. Yes, Senator. Thank you for the question and for 
the opportunity to update you. I did learn about this in the 
last week and get briefed in detail. The Office of Professional 
Responsibility, OPR, inside FBI did investigate in response and 
identified an agent who had engaged in improper conduct, and 
the agent was severely disciplined. The discipline has been 
imposed. On top of that, we pushed out refresher training to 
the entire workforce, especially about our discovery 
obligations and how we expect them to conduct themselves during 
those investigations.
    So both broad remedial work was done and individual 
discipline was imposed for the agent involved.
    Senator Murkowski. Was there a report that was prepared, 
and if so would you be able to provide the subcommittee with a 
copy of that?
    Mr. Comey. I don't know--I'm sure something was written up 
because we always have written support for discipline imposed. 
I'll check and get back to you on it.
    [The information follows:]
                  opr report on ted stevens case agent
    Sensitive employee personnel information is contained in Office of 
Professional Responsibility reports. As such, the FBI can provide a 
briefing on these documents in an appropriate setting.

    Senator Murkowski. I'd appreciate that.
    I had also asked about whether or not the agent who had 
brought this issue to the forefront, Agent Joy, had received 
any recognition from the FBI for really stepping up there. 
Director Mueller indicated at that time he didn't know whether 
or not there had been anything that had been done to recognize 
Agent Joy.
    In fact what happened was that Agent Joy left the Bureau. 
He believes that his career was undermined by the 
whistleblowing. Again, as you are looking to this issue, if you 
might look into this specific situation regarding Agent Joy and 
really whether or not the Bureau did right by him, because I 
think we all pay attention to what goes on with whistleblower 
situations, but if there is a perspective or a view within the 
agency that not only are whistleblowers not rewarded, but in 
fact there are consequences, negative consequences at the end, 
that's something that I think we need to certainly be aware of.
    Mr. Comey. Thank you for raising that. I don't know, but 
I'll find out.
    [The information follows:]
                        agent joy whistleblowing
    The FBI can provide a briefing on this sensitive personnel matter 
in an appropriate setting.

    Senator Murkowski. I appreciate that.
    Mr. Comey. Because I share your belief that whistleblowers 
are essential to a healthy institution. And I have a practice 
now where I call individual agents and support people around 
the country to thank them, for not famous acts, but for good 
pieces of work. So I'm going to follow up and find out where 
this fellow is, because maybe it's worth a phone call from me.
    Senator Murkowski. I appreciate that.

                HUMAN TRAFFICKING IN NATIVE COMMUNITIES

    One final question then for you, and this relates to human 
trafficking in our Native communities, not a subject that any 
of us want to talk about particularly, but I think that this is 
an area that is grossly underreported. Research that documents 
the extent of a problem is often done in the universities and 
think tanks. My alma mater out in Oregon, Willamette University 
Law School, released a report on the extent of human 
trafficking in Oregon. In Alaska, it's the Salvation Army that 
has made the note that Natives are one of the populations most 
vulnerable to human trafficking. Traffickers apparently will 
sell Alaska Native women and girls believing that their 
ethnicity is more appealing to buyers. It sickens you to even 
be discussing it.
    The FBI budget document speaks to the Bureau's role in 
human trafficking, but it doesn't specifically address the 
commitment of resources to human trafficking that involves 
Native women, American Indians or Alaska Native women. We all 
know that this problem is continuing to grow. So I'd ask what 
the Bureau is doing today to address the problem, what more you 
could be doing in these areas, and in terms of your statistical 
capabilities to what extent is the Bureau able to track to 
victimization of American Indians, Alaska Native women who are 
trafficked, and is there more that we can do to focus on this 
demographic?
    Mr. Comey. Thank you for the question. The answer is I 
don't know, but it's something that I need to get smarter 
about, because I learned a lot in the 6, 7 months I've been on 
the job about human trafficking and I've been shocked by it, 
just as you are, and about crime in Native American 
communities. But I have not thought well about this specific 
human trafficking issue in Native American communities, but I 
will.
    This question of research is also very interesting to me. I 
don't know whether we do a good enough job at the national 
level to think well about the problem. Chairman Wolf in the 
House has suggested that maybe we ought to add that capability 
to the National Gang Intelligence Center, so that we have 
people who wake up every morning thinking about it 
holistically, which is also something I'm going to look at.
    But I will get smarter and get back to you.
    [The information follows:]
                 human trafficking of native americans
    The FBI is actively engaged in efforts to identify and combat human 
trafficking involving tribal communities. The FBI has strengthened its 
work through ongoing collaboration with U.S. Attorney's Offices and 
other Federal, State, local, and tribal partners. Through these 
partnerships, the FBI provides training, conducts investigations, and 
supports trafficking victims in tribal areas, including, in South 
Dakota and the Bakken oil-producing region of North Dakota and Montana.
    In January 2014, the FBI Office for Victim Assistance collaborated 
with the FBI Civil Rights Unit and Violent Crimes Against Children 
Section, as well as the Department of Health and Human Services, to 
conduct Webinar trainings for FBI personnel to commemorate National 
Slavery and Human Trafficking Prevention Month. Training topics 
included: coordinating large scale operations that focus on domestic 
minor sex trafficking; human trafficking in Indian Country and the 
Bakken region of North Dakota and Montana; identifying resources and 
services available to adult and foreign minor victims of human 
trafficking; and, understanding and identifying labor trafficking.

    Senator Murkowski. I appreciate that. We have resources 
clearly in Alaska that have been looking very specific to the 
issues as it relates to Alaska Native women, and I know your 
folks on the ground up north are very capable in this area. But 
if we can have a broader understanding as to the issue in this 
country as it relates to our indigenous people, particularly 
our women and girls, I think it would be a very important 
focus.
    Thank you, Madam Chairman.
    Senator Mikulski. The vice chairman has an additional 
question. I just would like to amplify what Senator Murkowski 
has said. Both she and then Senator Cantwell, who chaired our 
Committee on Indian Affairs that's Pacific Northwest-focused, 
have spent a lot of time really on what is happening to Native 
Americans in this country and particularly the women and the 
children. They're not only a great resource to you, but a great 
way for you, to point you to these resources where a lot of 
work has been done, but not a lot of action has happened.
    Does that summarize it, Senator?
    Senator Murkowski. Yes.
    Senator Mikulski. So look to us here and we can help you 
get smart about it, and then let's get a real action plan.
    Senator Shelby.
    Senator Shelby. Thank you, Madam Chair.

                CHILD EXPLOITATION AND CHILD PORNOGRAPHY

    I want to follow up on this area, Mr. Director. I have 
visited Eastern Europe and the Ukraine and other areas where a 
lot of the human trafficking of young women that have been 
abused, to say the least, as you well know, into forced 
prostitution of different kinds, child pornography, everything, 
just small children. That is a big, big business, especially 
the child pornography. It's international in scope. It's 
obviously--it's hard to stamp out.
    But in America, a lot of Americans are buying movies of 
this. It's sickening. But on the Banking Committee I remember 
Senator Sarbanes--I was chairman on the committee and he was 
ranking, and then he was chairman and I was ranking. We worked 
together on this a lot, dealing with the payment system, 
because the key is the credit card system, how do you pay for 
it?
    The FBI and the Justice Department have been very good. 
It's very complex, very hard to discern everything. But it's 
one of the worst things that you could imagine, and you have. 
And if you have children or grandchildren or both, you think, 
my gosh. But the trafficking, the human trafficking of young 
women and young children and the exploitation of it is 
something that the Bureau has been very good and the Justice 
Department. But it's such a massive thing to get our hands 
around.
    Do you want to address that at all, and the FBI's interest 
here?
    Mr. Comey. It is a massive problem, as big as the Internet. 
The explosion of the Internet has brought with it an explosion 
in child exploitation and child pornography. It's an enormous 
machine that at the back end people are viewing child 
pornography, at the front end children are being fed into the 
engine. It's one of the reasons that it drives me a bit crazy 
when I hear people say: Oh, they were just looking at child 
pornography. Your just looking at child pornography, first of 
all, is sick in and of itself and raises serious concerns about 
whether you're abusing children in your own life.
    Senator Shelby. But it pays for it.
    Mr. Comey. Yes. But it's their desire to see fresh images 
that powers the engine at the front and leads to this voracious 
consumption of child pornography. So there's no such thing in 
my view as just looking at child pornography. It's a serious 
crime. It has to be taken seriously. It's something that, as 
Senator Mikulski knows--who is one of the great supporters of 
our ``Innocent Images'' program--it's something we are 
passionate about. We have to send a message both to those who 
would profit from the business, those who would view and become 
the consumers that drives this engine, and those who would 
touch the children and destroy them to produce those images. So 
we have to hit the whole train.
    Senator Shelby. Have you had real cooperation from, say, 
the people of the Ukraine and Russia and some of these other 
countries where a lot of this trafficking and filming and 
everything takes place?
    Mr. Comey. The answer is yes, because, despite what 
political differences we may have, all humans are revolted by 
the abuse of children, exploitation of children. So that's an 
area in which we can find common ground even with the folks in 
Russia.
    Senator Shelby. Thank you, Madam Chairwoman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. There are many more questions to be 
asked, but we're now going to move to our classified hearing. 
So this subcommittee will temporarily recess and reconvene in 
closed session at the secure facility in the Capitol Visitors 
Center, where we can consider those matters that require more 
classified conversation, particularly in the global war against 
terrorism, espionage, and these other vile, vile, and repugnant 
international crimes against children.
    [The following questions were not asked at the hearing, but 
were submitted to the agency for response subsequent to the 
hearing:]
            Questions Submitted by Senator Patrick J. Leahy
                      shooting of ibragim todashev
    Question. What measures have you taken to ensure the American 
people that FBI shooting incidents, including the one in Florida last 
May, are investigated fairly and independently?
    Answer. In 1982, then Director William Webster approved the 
establishment of the Shooting Incident Review Group (SIRG) which is 
comprised of the Federal Bureau of Investigation (FBI) and the 
Department of Justice (DOJ) representatives to review and assess all 
shooting incidents involving FBI personnel. The SIRG provides the 
Director and FBI Headquarter Executive Management evaluative analyses, 
observations, and recommendations concerning operational, training, and 
other relevant issues, including the need for referral to the DOJ, 
Office of Inspector General (OIG), or the FBI's Internal Investigations 
Section for further administrative or disciplinary review, if deemed 
necessary. In 1995, the DOJ Office of Investigative Agency Policies 
adopted ``Resolution 13,'' which further formalized the process by 
which DOJ investigative agencies conduct post shooting incident 
reviews. Central to ``Resolution 13'' was the requirement that the 
intentional and unintentional discharge of a firearm by a DOJ employee 
be expeditiously reported, documented, investigated, and reviewed.
    In accordance with the establishment of the SIRG and ``Resolution 
13,'' the FBI utilizes a Shooting Incident Review Team (SIRT) to 
conduct an administrative inquiry of every Agent Involved Shooting 
(AIS) for the purpose of assessing and documenting the use of force 
incident, and to provide the DOJ Civil Rights Division sufficient 
information to make a prosecutorial determination. Each SIRT prepares a 
comprehensive report for the SIRG. Each SIRG meeting is attended by a 
representative of the DOJ OIG. The SIRG independently reviews FBI 
shooting incidents to determine whether the use of deadly force was 
reasonable, and in accord with the DOJ Deadly Force Policy and the law. 
The SIRT process is designed to inform affected field offices, and 
other FBI personnel, of findings or lessons learned from an 
operational, administrative, tactical, and training perspective.
    The FBI routinely conducts AIS reviews in coordination with State 
and local authorities. FBI SIRTs jointly conduct post-shooting 
interviews and coordinate reporting to ensure both State/local and DOJ 
prosecutorial offices have information necessary to make an independent 
prosecutorial decision. DOJ and State/local prosecutors have 
independent, concurrent jurisdiction regarding Federal and State 
charges and coordinate with each other as appropriate.
                            forensics reform
    Question. Would you agree that there must be national leadership in 
the area of forensic science, and that the Department of Justice, 
working with the FBI and other elements of the executive branch, can 
play a central role in the development of this important part of our 
criminal justice system?
    Answer. National leadership in the area of forensic science is of 
utmost importance. For over three quarters of a century, the Department 
of Justice and the FBI have served in such a leadership role, both 
nationally and internationally, for the forensic sciences.
    Question. Will you commit to working with me on the forensics 
reform bill that I introduced today?
    Answer. The FBI, in conjunction with other DOJ components takes the 
issue of improving forensics seriously and the Bureau would be glad to 
work with the Senator to provide feedback or technical assistance 
sought on legislation.
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
                           white-collar crime
    Question. Could you please provide, in both real and proportional 
to the rest of the Department of Justice's (DOJ's) resources, what 
percentage of DOJ and the Federal Bureau of Investigation (FBI) 
resources have been dedicated to white-collar crime in general and 
mortgage fraud specifically over the past 20 years with a particular 
focus on times when high amounts of white-collar crime needed to be 
pursued, such as the economic fallout of the savings and loan crisis 
and the popping of the dot come bubble?
    Answer. As an intelligence-driven, law enforcement and national 
security organization, the FBI has responsibility to address a variety 
of threats to include Terrorism, Counterintelligence, Cyber and a 
multitude of Criminal threats to include Public Corruption, Civil 
Rights, Organized Crime, Complex Financial Crime, and Violent Crime. 
Each year, the FBI utilizes intelligence to determine the appropriate 
ranking of those threats. Within the priority area of Complex Financial 
Crime, the FBI addresses the threats of Securities and Commodities 
Fraud, Corporate Fraud and Mortgage Fraud, among others.
    Prior to the mortgage fraud crisis that emerged several years ago, 
the FBI did not track mortgage fraud separately, outside of its White-
Collar Crime program, and thus cannot provide trends from the past 20 
years. The chart below provides data since 2008.

                                                                   WHITE-COLLAR CRIME
--------------------------------------------------------------------------------------------------------------------------------------------------------
                         Type                               2008          2009          2010          2011          2012          2013          2014
--------------------------------------------------------------------------------------------------------------------------------------------------------
                 Department of Justice
 
Mortgage Fraud........................................  $ 69,546,000  $111,508,000  $151,984,000  $114,475,000  $141,308,000  $121,731,000  $129,338,000
Other White-Collar Crime..............................   435,120,000   478,570,000   436,598,000   532,399,000   528,001,000   569,322,000   586,553,000
                                                       -------------------------------------------------------------------------------------------------
      Total...........................................   504,666,000   590,078,000   588,582,000   646,874,000   669,309,000   691,053,000   715,891,000
                                                       -------------------------------------------------------------------------------------------------
            Federal Bureau of Investigation
 
Mortgage Fraud........................................    32,203,000    66,763,000    94,287,000    70,131,000    69,048,000    53,564,000    59,497,000
Other White-Collar Crime..............................    57,806,000    64,745,000    81,031,000   139,781,000   140,468,000   145,756,000   161,716,000
                                                       -------------------------------------------------------------------------------------------------
      Total...........................................    90,009,000   131,508,000   175,318,000   209,912,000   209,516,000   199,320,000   221,213,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Please provide estimates in the differences in the 
resource costs required for the pursuit of individuals versus that of 
companies. Additionally, could you please provide estimates of 
resources required to prepare a case to be taken to court versus 
establishing non-prosecution and deferred prosecution agreements with 
companies?
    Answer. Investigations into complex financial crimes commonly 
require the FBI to consider both individual and entity level criminal 
culpability. The investigations into individuals and entities have 
significant overlap as the individuals interviewed, documents analyzed, 
and investigative methods typically serve the dual purpose of 
uncovering the underlying facts, which may support charging 
individuals, entities, or both. Therefore, the FBI is unable to 
quantify the differences in resources required for the pursuit of an 
individual versus an entity. When investigating individuals, due to 
certain fact patterns, it is often appropriate to incorporate an 
investigation into the entity as well. An entity can also serve as a 
cooperator in investigations and the ultimate resolution reached with 
an entity can be significantly influenced by its level of cooperation, 
among other factors.
    With regard to the differences in resources dedicated to 
investigations going to court versus those that end in non-prosecution 
agreements (NPAs) or deferred prosecution agreements (DPAs), the FBI's 
investigative strategy is one that rests on the assumption that all 
criminal investigations will be taken to trial. Doing so ensures a 
comprehensive investigation has been conducted and that the FBI is 
positioned to withstand the scrutiny of a trial by jury, if necessary. 
Conducting an investigation in this manner enables the FBI to more 
persuasively articulate the nature of the offenses and the evidence of 
those offenses by the targeted individuals, thereby increasing the 
likelihood of individual pleas or corporate resolutions without the 
need for a trial. For that reason, there is no significant difference 
in the cost for the FBI to investigate cases that proceed to trial and 
cases resolved without a trial.
         criminal referrals from financial regulatory agencies
    Question. Please provide numbers for how many criminal referrals 
the FBI and DOJ has received from financial regulatory agencies year by 
year since 1990, broken down by referring agency. Has the number of 
criminal referrals from financial regulatory agencies changed over the 
past decade? Has there been a significant decline? If so, how does the 
FBI account for such a decline? What could the FBI do to train and 
encourage regulatory agencies to refer criminal activity for FBI 
investigation? Does the FBI have adequate resources to take on such 
activity?
    Answer. The FBI does receive referrals from Federal regulatory 
agencies, but the number of referrals is not tracked; therefore, the 
FBI cannot assess trends in referrals. The FBI does work closely with 
other law enforcement and regulatory agencies to address complex 
financial crime. Understanding the current threat picture is essential 
to appropriately address the complex financial crime threat. FBI 
headquarters is actively engaged with private sector and other 
governmental agencies to understand the nationwide complex financial 
crime threat. This collaboration enables the development of a holistic 
view of the threat and identification of nationwide and local trends.
    On a local level, the FBI is committed to working with local, State 
and Federal partners to investigate, prosecute, and collect and 
disseminate intelligence related to complex financial crimes. The FBI 
currently operates 21 Financial Crimes Task Forces throughout the 
United States. These task forces include at least 11 Federal agencies 
outside the Department, as well as partners within the Department, and 
over 30 local or State law enforcement and regulatory agencies. In 
total, the FBI is dedicating nearly 900 agents and more than $200 
million to combat corporate, mortgage, and securities fraud and other 
economic crimes.
    The FBI recognizes the importance and value in continuing to build 
and maintain strong working relationships with regulatory partners like 
the U.S. Securities and Exchange Commission (SEC) and the Commodity 
Futures Trading Commission (CFTC). As such, the FBI embedded 
Supervisory Special Agents and analysts within the SEC and CFTC to 
conduct real-time review of complaints and tips received by these 
agencies to determine if the information is relevant to an ongoing FBI 
investigation or should be referred for the opening of a new 
investigation. This greatly reduces the likelihood of relevant 
information slipping through the cracks. The placement of FBI personnel 
within these key regulatory agencies allows for earlier FBI involvement 
in parallel investigations and increases opportunities for the 
successful use of proactive and sophisticated techniques in complex 
investigations.
                 investigating multinational companies
    Question. The FBI is sometimes tasked with investigating very 
large, complex multinational companies, which could cost millions to 
investigate thoroughly. How does the FBI work with larger corporations 
in investigating criminal activity? How dependent is the FBI on 
information obtained through the internal investigations of companies? 
Does the FBI have adequate personnel to verify information provided by 
companies in their internal investigations? Could you please identify 
some examples of when the FBI has brought on experts from other 
agencies to assist in such investigations?
    Answer. It is true that the nature of financial crime is becoming 
more complex than ever before. The complexity is driven by the nature 
of the offenses, the use of technology and more frequently, the 
international scope of investigations. Companies may serve as 
witnesses, victims, or as the targets of investigations. Regardless of 
the role, if the company is not deemed to be inherently criminal in 
nature, e.g., an established corporation with legitimate business 
interests versus a corporation created for the sole purpose of 
operating a Ponzi scheme, the company can serve as a tremendous source 
of information and a resource that can be leveraged to develop a more 
efficient investigative strategy. For example, cooperating companies, 
through their internal investigations, can review documents, identify 
witnesses, and provide an initial analysis of data. Although these 
efforts on the part of the company can aid an investigation, it would 
be inaccurate to describe the relationship as one where the FBI is 
dependent on the company and its internal investigation. The FBI has 
alternative methods to relying on the company's cooperation. For 
example, the FBI can collect records via a search warrant (given 
appropriate authority). Voluntary production of records can be mutually 
beneficial to both the Government and the company, but it also 
introduces the risks of completeness and accuracy of the data produced. 
Given that the company is likely not impartial, the investigative 
strategy must address these added risks. These risks can be addressed 
through a number of investigative methods, including interviews, 
independent verification from an external source, detailed descriptions 
of the internal investigation process with company counsel, and/or 
conducting our own analysis of the records.
    FBI investigations into Complex Financial Crimes typically involve 
a number of FBI personnel, to include Special Agents, Forensic 
Accountants and Intelligence Analysts. The FBI also works closely with 
prosecuting offices and regulating agencies such as the Security 
Exchange Commision (SEC). The FBI regularly leverages experts and 
industry specialists from regulatory agencies conducting parallel 
investigations of Complex Financial Crimes. The use of these experts 
and industry specialists ranges from witness testimony during trial to 
serving as a resource during the investigation. For example, the FBI 
has utilized individuals from the Financial Industry Regulatory 
Authority-Criminal Prosecution Assistance Group (FINRA-CPAG) to analyze 
financial data, assess the risks associated with certain types of 
securities investments, review private placement agreements, and create 
summary data for trial. Economists and industry experts from the CFTC 
have identified, analyzed, and reported on brokerage records and 
provided technical assistance on investigations of commodity fraud. 
Industry specialists from the SEC have analyzed financial statements 
and served as Government witnesses during insider trading 
investigations. The FBI has also utilized the National Futures 
Association (NFA) for expert testimony on matters involving commodity 
fraud.
                          mortgage fraud cases
    Question. In fiscal year 2013, the number of suspicious activity 
reports (SARs) related to mortgage fraud dropped 25 percent to just 
over 69,000, but could you provide a breakdown of how many SARs were 
investigated, bundled into a larger investigation, or were found to 
have insufficient information for investigation? Is there a backlog of 
cases the FBI plans to pursue from this surge of SARs following the 
financial crisis?
    Answer. The FBI does not track, at the individual SAR level, 
whether SARs generate cases or are bundled into larger investigations. 
Each SAR filing does not equate to predication to initiate an 
investigation as an individual SAR may not provide enough information 
to open an investigation or multiple SARs may lead to one 
investigation. The FBI is unable to address every complaint of mortgage 
fraud, but attempts to work higher level cases which involve multiple 
victims, higher dollar losses or fraud activity, and/or target 
organized groups involved in the fraud. SARs are a valuable tool in 
identifying such networks but very often multiple SARs are associated 
with one group; therefore, these multiple SARs would be utilized to 
initiate one FBI investigation.
    The FBI does not track the quality or sufficiency of SAR data other 
than to assess whether they can be utilized for lead value and 
therefore incorporated into new or existing investigations. The FBI 
does not currently have a backlog of cases from SARs associated with 
the financial crisis.
               follow-up on deferred and non-prosecution
    Question. How does the FBI conduct follow-up on non-prosecution and 
deferred prosecution agreements to ensure that companies are making the 
necessary reforms?
    Answer. As elements of some deferred prosecution agreements (DPAs) 
and non-prosecution agreements (NPAs), companies are required to engage 
in remediation or compliance reforms. In such agreements, the 
Department of Justice includes a mechanism to ensure that companies may 
be taking the required actions. Generally speaking, this mechanism 
takes one of two forms: an independent compliance monitor who reports 
to the Department on a regular basis, or Department oversight, 
supported by mandatory self-reporting by the company on its efforts.
    As an example of a corporate monitorship, in a December 9, 2013 DPA 
resolving Foreign Corrupt Practices Act (FCPA)-related charges against 
Bilfinger SE (``Bilfinger''), Bilfinger agreed to retain a corporate 
monitor for not less than 18 months. The monitor's mandate under the 
DPA is to evaluate ``the effectiveness of the internal accounting 
controls, record-keeping, and financial reporting policies and 
procedures of the company as they relate to the company's current and 
ongoing compliance with the FCPA and other applicable anti-corruption 
laws[,]'' including an assessment of the executive board's and senior 
management's commitment to, and effective implementation of, the 
corporate compliance program imposed as part of the DPA. Furthermore, 
under the DPA, the monitor is required to consult regularly with, and 
disclose any violations of law to, the Department. If the monitor 
concludes that the company has not instituted effective reforms or has 
engaged in further misconduct, then the monitorship may be extended or 
other action taken. Otherwise, the monitorship ends at the conclusion 
of the 18 month period and, for the remaining 18 months of the DPA, 
Bilfinger is required to self-report to the Department in a manner 
consistent with that described below.
    As an example of oversight and self-reporting, in an April 9, 2014 
DPA resolving Foreign Corrupt Practices Act (FCPA)-related charges 
against Hewlett-Packard Polska, SP. ZO.O. (``HP Poland''), HP Poland is 
required to report to the Department annually during the 3-year term of 
the DPA regarding its ``remediation and implementation of the enhanced 
compliance measures'' that it agreed to undertake as part of the DPA. 
The Department, in its sole discretion, determines whether the terms of 
the DPA have been met. Pursuant to a reporting schedule established in 
the DPA, HP Poland is required to ``submit to the Department a written 
report setting forth a complete description of its remediation efforts 
to date, its proposals reasonably designed to improve the company's 
internal controls, policies, and procedures for ensuring compliance 
with the FCPA and other applicable anti-corruption laws, and the 
proposed scope of the subsequent reviews[,]'' which shall ``further 
monitor and assess whether the company's policies and procedures are 
reasonably designed to detect and prevent violations of the FCPA and 
other anti-corruption laws.'' Moreover, the DPA provides that, ``should 
the company discover any evidence or allegations of possible corrupt 
payments, false books and records, or the failure to implement or 
circumvention of internal accounting controls, including the existence 
of internal or external investigations into such conduct, the company 
shall promptly report such evidence or allegations to the Department.''
    Department prosecutors review the monitor reports and corporate 
self-reports, meet with the monitor and/or corporate representatives as 
appropriate to follow up on issues identified in the reports, and 
initiate further investigation where warranted. Under the terms of DPAs 
and NPAs, if the Department determines that a company has not made the 
required reforms, or has engaged in further misconduct, the Department 
has a range of options it may pursue, including but not limited to 
extending the terms of the DPA or NPA or declaring the company in 
breach of the DPA or NPA and instituting criminal prosecution against 
the company.
                               oig report
    Question. Has the FBI taken steps to raise the prioritization of 
mortgage and mortgage-related securities fraud within its various field 
offices?
    Answer. In its response to the OIG report, the Department noted 
that it has focused successfully on mortgage fraud violations. As the 
FBI data in the audit report itself reflects, the number of mortgage 
fraud convictions more than doubled from fiscal year 2009 to fiscal 
year 2010, i.e., from 555 to 1,087 convictions, and then increased 
further in fiscal year 2011 to 1,118 convictions. In addition, the 
Department concurred with all of the recommendations made by OIG 
including: ensure all agencies update online and other publicly 
available material related to the Distressed Homeowner Initiative; 
revisit results of Operation Stolen Dreams to determine if corrective 
action on publicly reported results is necessary; implement methodology 
for properly soliciting, collecting and reviewing information; revisit 
existing guidance on initiating mortgage fraud undercover operation; 
and develop a method to readily identify mortgage fraud criminal and 
civil enforcement efforts for reporting purposes.
    With respect to prioritization, in 2011, mortgage fraud was ranked 
as a priority area under the Criminal Investigative Division's Complex 
Financial Crime category. Not every type of fraud was ranked as a 
priority threat during this time period, which demonstrates that the 
FBI considered mortgage fraud to be among the most prominent financial 
crimes we faced at the time.
    We also recognize that the Inspector General contended that 
mortgage fraud was a low priority or not listed as a priority at 
various FBI Field Offices, including the Baltimore, Los Angeles, Miami, 
and New York offices. We note, however, that during the period covered 
by the audit, all threats were prioritized at the headquarters level, 
and that FBI field offices did not re-rank threats within their own 
geographical areas. As noted above, mortgage fraud was ranked as a 
priority threat, and the various field offices would have utilized that 
prioritization instead of coming up with their own rankings. Beginning 
in 2013, however, FBI field offices were required to rank their own 
threats based on domain assessments, ongoing intelligence collection 
and ultimately, with approval from FBI Headquarters. We can report that 
Baltimore, Los Angeles, Miami, and New York all rank mortgage fraud as 
a priority threat.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
              cyber security efforts with private industry
    Question. Given the growing cyber security threat facing our Nation 
and the challenges inherent in facilitating private industry reporting 
of attacks what is the FBI doing to facilitate participation in the 
EGuardian program?
    Answer. Uniquely tailored for the particular challenges of cyber, 
the ``Guardian for Cyber'' application expedites the triage and 
deconfliction of leads submitted from multiple sources, which are then 
immediately assigned and assessed by the FBI and other government 
agency (OGA) partners. The system now includes secure, cyber-specific 
incident submission portals that consolidate critical information 
provided by both law enforcement (eGuardian) and trusted industry 
stakeholders (iGuardian). This response provides information regarding 
engaging the private industry with iGuardian.
    The FBI's trusted industry partners have access to iGuardian, a 
secure method to report cyber intrusions and submit malware for 
analysis and feedback through the InfraGard Network. InfraGard is a 
partnership among the FBI and the private sector, educational 
institutions, local, State, and Federal Government organizations that 
are dedicated to protecting our national critical infrastructure by 
sharing information regarding both cyber and physical threats and 
vulnerabilities. InfraGard has a current active membership base of 
approximately 25,000 members.
    At the request of FBI's private industry partners, the FBI has 
presented iGuardian overviews to critical infrastructure associations, 
alliance councils, and conferences. The interest to join the iGuardian 
portal has been significant. From concept to development, the FBI has 
been working with these partners through a collaborative process to 
build a system to fulfill their needs. Every step of the way we have 
sought and incorporated private industry input.
    The FBI is executing an iGuardian pilot program with five cleared 
facilities and is scheduled to be launched through an enhanced portal 
on FBI.gov. Once launched, the FBI will initiate the process for 
industry to apply for access through FBI.gov. Additionally, the FBI is 
in the process of enhancing the portal to be utilized to report 
multiple hazards, to include Counterterrorism, Counterintelligence, 
Criminal, and Cyber.
    Question. Is this system open to all industries for reporting of 
cyber attacks? If not, what industries are participating? Is there a 
schedule to assimilate all industries into the system?
    Answer. The system is accessible to all industries through the 
FBI's InfraGard network. The enhanced iGuardian portal, to be used by 
general industry, in addition to InfraGard members, has been launched. 
Five large, cleared facilities have provided their assistance to the 
FBI in enhancing this portal and piloting its initiation. This will 
significantly expand the Federal Government's increased awareness of 
vulnerabilities in critical infrastructure networks, to better 
understand cyber-related threat vectors, and to facilitate a 
coordinated overall cyber incident response by the U.S. Government. The 
FBI anticipates the Defense Security Service (DSS) will support the 
iGuardian portal as a threat submission tool that could be used by all 
cleared facilities. This will satisfy numerous existing requirements 
described in the National Industrial Security Program Operating Manual 
(NISPOM), section 941, among others.
    The FBI is working as quickly as possible to fill the need to 
assimilate all industry into the iGuardian system, but there is no 
timeline established.
    Question. Are there currently any requirements for industry to 
report cyber attacks? If so, what are those requirements?
    Answer. The FBI is not aware of any requirement for industry to 
report to the FBI.
    Question. Do you have any way of knowing the percentage of attacks 
on each entity or industry that are actually reported?
    Answer. Due to the lack of required reporting by industry, the 
total number of cyber attacks made against entities and industries is 
unknown. Therefore, the Cyber Division cannot estimate the percentage 
of cyber attacks that are not reported to the FBI. However, based on 
data collected thus far, currently there are more than 4,100 reported 
incidents in Guardian categorized by sector, e.g. commercial sector, 
information technology, cleared defense contractors, Internet service 
providers, public health, financial services, education, and 
communications.
                             cyber security
    Question. Cyber security has topped the Director of National 
Intelligence's list of global threats for the second consecutive year. 
However, the FBI's mission prioritization does not seem to reflect the 
significance of the cyber threat we are facing. What's more, the budget 
request flat lines this growing threat. What reassurance can you give 
us that your mission prioritization is evolving with the threats our 
country is facing? Does this budget adequately resource the needs of 
the Bureau in key areas such as cyber security?
    Answer. Through the support of the Congress, the FBI received 
funding in fiscal year 2014 that ended the hiring freeze and allows FBI 
to start hiring again. The fiscal year 2014 hiring effort will include 
personnel who will be dedicated to cyber efforts. Additionally, the 
fiscal year 2014 appropriation included a program increase to support 
the Next Generation Cyber Initiative. These fiscal year 2014 resources 
are critical to enhancing the FBI's cyber capabilities in the face of 
the growing cyber threat. The fiscal year 2015 President's budget 
request includes funding to sustain the critical improvements and 
enhancements in cyber security provided in fiscal year 2014. Cyber 
Security remains an FBI priority in fiscal year 2015.
    The FBI's Cyber Division has developed and is implementing a new 
strategy, the Cyber Threat Team model, in which named threats are 
explicitly prioritized using an objective model, specialized teams of 
dedicated Field and HQ personnel are built for the highest priority 
threats, and detailed and explicit mitigation strategies are developed 
and implemented against these high priority threats.
                        hazardous devices school
    Question. Could you detail the training capacity of the Hazardous 
Devices School today? Specifically, the number of students that it can 
accommodate, the number of classes offered annually and the need that 
exists in terms of re-certifying bomb technicians?
    Answer. The current maximum throughput for the Hazardous Devices 
School (HDS) using the current curriculum is 1,214 students. HDS 
intends to operate at capacity in fiscal year 2015. In fiscal year 
2014, HDS is operating slightly below capacity due to cancellations in 
October 2013 during the lapse in appropriations, and will train 1,014 
bomb technician students in the following courses:
  --6 Bomb Technician Certification Courses (six weeks), instructing 24 
        students per class--(maximum capacity: 8 classes);
  --28 Bomb Technician Recertification Courses (one week, required 
        every 3 years for certified technicians), instructing 24 per 
        class--(maximum capacity: 30 classes);
  --1 Bomb Squad Commanders class for 30 students;
  --6 Stabilization Level III classes, with 12 students per class;
  --4 Advanced Electronic classes, with 12 students per class--(maximum 
        capacity: 6 classes); and
  --3 Electronic Countermeasure (ECM) classes, with 16 students per 
        class--(maximum capacity: 8 classes).
    Regarding the need for FBI's training at HDS, the FBI has 
approximately 1,300 students on the waiting list for its certification 
and/or recertification classes.
    Question. Is there an unmet training need in the bomb tech 
community and if so, are there sufficient resources in the budget 
request to meet that need? If not, please detail the unmet need and 
what additional resources would be required to do so.
    Answer. The Stabilization and Electronic Countermeasure (ECM) 
courses require the use of temporary duty FBI Special Agent Bomb 
Technician instructors, because the full-time instructor cadre at HDS 
is stretched to capacity to keep up with the certification and 
recertification course schedule. Also, HDS can only offer two 
operational classes at any given time because the school's equipment, 
vehicles, storage, and training facilities are used to capacity. At 
this time, there is an eleven-month waiting period for bomb technicians 
to attend the recertification course, a twelve-month backlog for the 
certification course, and a 6 to 7-month waiting list for the Advanced 
Electronics and ECM courses.
    As the domestic Improvised Explosive Device (IED) environment 
evolves, the need for advanced instruction to address sophisticated 
explosive device designs and attack methods continue to grow. Based on 
intelligence gathered from around the globe and exploited by the 
Terrorist Explosive Device Analytical Center (TEDAC), the FBI has 
developed several advanced courses for bomb technicians with a focus on 
standardized tactics, techniques, and render safe procedures (RSPs). 
These advanced courses focus on real, complex threats, such as vehicle-
borne, water-borne, and radio-controlled IEDs, suicide bombers, 
homemade or improvised explosives, weapons of mass destruction, and 
scenarios that require bomb technicians to operate side-by-side with 
tactical teams. Advancing FBI instruction at HDS is crucial to 
effectively meet the needs of the U.S. bomb technician community by 
teaching standardized operating procedures for bomb squads to defeat 
these threats. Central certification and curriculum development will 
also reduce training costs to both public safety bomb squads and the 
Federal Government. The FBI continues to evaluate resource needs and 
will work to expand the delivery of this advanced training to public 
safety bomb technicians within available resource levels.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                         online sex trafficking
    Question. Approximately how many FBI agents are designated to sex-
trafficking investigations?
    Answer. The FBI has more than 400 agents designated to 
investigations involving the abduction or disappearance of children, 
online sexual exploitation of children and the commercial sexual 
exploitation of children, i.e. sex trafficking of children.
    Question. How much funding is allocated to these sex-trafficking 
investigations?
    Answer. In fiscal year 2014, the FBI will spend approximately $107 
million on cases involving the abduction or disappearance of children, 
online sexual exploitation of children and the commercial sexual 
exploitation of children, i.e. sex trafficking of children. This amount 
includes both personnel and non-personnel resources.
    Question. What Web sites has the FBI identified as the leading Web 
sites for Internet sex trafficking?
    Answer. The FBI has identified more than 100 Web sites that cater 
to escort and sexual services advertisements. Many of these Web sites 
may focus on particular cities and/or regions, while others advertise 
escort and sexual services nationwide. In addition to these Web sites, 
social networking Web sites and dating Web sites are also being 
utilized to facilitate the advertisement of prostitution. For an 
advertisement offering a commercial sexual service to constitute 
Federal criminal sex trafficking, the victim induced to commit such 
conduct must either be under the age of 18 or an adult subjected to 
force, fraud, and coercion. Since the FBI does not want to promote the 
Web sites, specific Web site information will not be provided.
    Question. What is the FBI's determination of the percentage of ads 
posted on Backpage.com adult-services section is for prostitutes? What 
about other Web sites?
    Answer. Federal investigative resources are focused on eradicating 
sex trafficking, which occurs when children engage in commercial sex 
acts and when adults are compelled to engage in commercial sex acts 
through the use of force, fraud, or coercion. In the course of 
investigating sex trafficking, the FBI does review advertisements on 
Web sites for adult services. Through the course of that review, the 
FBI has determined a significant number of the advertisements posted on 
the adult-services section of identified Web sites are specific to 
prostitution. In addition to advertisements, many of these sites also 
offer review boards wherein active members can review and rate 
``prostitutes,'' discuss popular areas and venues for prostitution, and 
post intelligence of law enforcement activity and methodology. The 
volume of prostitution advertisements on social networking and dating 
Web sites is more difficult to quantify as the advertisements are 
embedded within user profiles and are not always accessible to law 
enforcement due to privacy measures implemented by the user. As for the 
advertisements posted on other Web sites specifically for escorts, the 
FBI has determined a significant number these advertisements are also 
specific to prostitution.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. The committee recesses and we'll 
reconvene in the Visitors Center.
    [Whereupon, at 10:48 a.m., Thursday, March 27, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
